<html>
<title> - NOMINATION OF GOV. THOMAS J. VILSACK, OF IOWA, TO BE SECRETARY OF AGRICULTURE</title>
<body><pre>[Senate Hearing 111-230]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-230
 
                 NOMINATION OF GOV. THOMAS J. VILSACK,
                      OF IOWA, TO BE SECRETARY OF
                              AGRICULTURE

=======================================================================


                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION


                               __________

                            JANUARY 14, 2009

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov



                  U.S. GOVERNMENT PRINTING OFFICE
49-575                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                       TOM HARKIN, Iowa, Chairman

PATRICK J. LEAHY, Vermont            SAXBY CHAMBLISS, Georgia
KENT CONRAD, North Dakota            RICHARD G. LUGAR, Indiana
MAX BAUCUS, Montana                  THAD COCHRAN, Mississippi
BLANCHE L. LINCOLN, Arkansas         MITCH McCONNELL, Kentucky
DEBBIE A. STABENOW, Michigan         PAT ROBERTS, Kansas
E. BENJAMIN NELSON, Nebraska         MIKE JOHANNS, Nebraska
SHERROD BROWN, Ohio                  CHARLES E. GRASSLEY, Iowa
ROBERT P. CASEY, Jr., Pennsylvania   JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
KIRSTEN GILLIBRAND, New York
MICHAEL BENNET, Colorado

                Mark Halverson, Majority Staff Director

                    Jessica L. Williams, Chief Clerk

            Martha Scott Poindexter, Minority Staff Director

                 Vernie Hubert, Minority Chief Counsel

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Nomination of Gov. Thomas J. Vilsack, of Iowa, to be Secretary of 
  Agriculture....................................................     1

                              ----------                              

                      Wednesday, January 14, 2009
                    STATEMENTS PRESENTED BY SENATORS

Harkin, Hon. Tom, a U.S. Senator from the State of Iowa, 
  Chairman, Committee on Agriculture, Nutrition and Forestry.....     1
Chambliss, Hon. Saxby, a U.S. Senator from the State of Georgia..     3
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa.     6

                                Panel I

Vilsack, Thomas J., of Iowa, to be Secretary, U.S. Department of 
  Agriculture....................................................     7
                              ----------                              

                                APPENDIX

Prepared Statements:
    Vilsack, Thomas J............................................    46
Document(s) Submitted for the Record:
    Committee questionnaire and Office of Government Ethics 
      Executive Branch Personnel Public Financial Disclosure 
      Report filed by Thomas J. Vilsack..........................    50
    Various organizations, letters of support and endorsement of 
      Gov. Thomas J. Vilsack to be Secretary of Agriculture......72-120
Question and Answer:
Harkin, Hon. Tom:
    Written questions to Gov. Thomas J. Vilsack..................   122
Baucus, Hon. Max:
    Written questions to Gov. Thomas J. Vilsack..................   128
Casey, Hon. Robert P., Jr.:
    Written questions to Gov. Thomas J. Vilsack..................   131
Chambliss, Hon. Saxby:
    Written questions to Gov. Thomas J. Vilsack..................   134
Crapo, Hon. Mike:
    Written questions to Gov. Thomas J. Vilsack..................   144
Klobuchar, Hon. Amy:
    Written questions to Gov. Thomas J. Vilsack..................   149
Leahy, Hon. Patrick J.:
    Written questions to Gov. Thomas J. Vilsack..................   150
Lincoln, Hon. Blanche L.:
    Written questions to Gov. Thomas J. Vilsack..................   159
Roberts, Hon. Pat:
    Written questions to Gov. Thomas J. Vilsack..................   165
Stabenow, Hon. Debbie A.:
    Written questions to Gov. Thomas J. Vilsack..................   168
Thune, Hon. John:
    Written questions to Gov. Thomas J. Vilsack..................   178



                    NOMINATION OF THOMAS J. VILSACK,



                      OF IOWA, TO BE SECRETARY OF



                              AGRICULTURE

                              ----------                              


                      Wednesday, January 14, 2009

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-G50, Dirksen Senate Office Building, Hon. Tom Harkin, 
Chairman of the Committee, presiding.
    Present: Senators Harkin, Leahy, Lincoln, Nelson, Casey, 
Klobuchar, Chambliss, Lugar, Grassley, Roberts, Thune, and 
Cochran.

 STATEMENT OF HON. TOM HARKIN, U.S. SENATOR FROM THE STATE OF 
   IOWA, CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Harkin. The Senate Committee on Agriculture, 
Nutrition, and Forestry will come to order.
    Well, this morning, it is a distinct honor of mine to hold 
this hearing of this Committee to consider the nomination of 
Thomas J. Vilsack, former Governor of Iowa, to become Secretary 
of Agriculture. I want to welcome you to the Committee, 
Governor Vilsack, along with your wife, Christie, our former 
First Lady, and a good number of Iowans and others who are here 
to support you and wish you well.
    The Secretary of Agriculture is a job with far-reaching 
responsibilities and influence. Although it is often 
overlooked, all Americans, and many millions more around the 
world, lead better lives each day because of the capable 
efforts of the people who make up the Department of 
Agriculture.
    Nothing is more basic to human sustenance than a safe and 
affordable and plentiful supply of nutritious food. Our Nation 
is blessed to have the people, the resources, and the 
technology to form a system stretching from family farms to 
family dining tables that allows most of us to take food pretty 
much for granted. This level of food security has been possible 
for only a very small slice of human history and is still out 
of reach for far too many of the world's inhabitants--some 
right here in our own country. The Secretary of Agriculture has 
a fundamental responsibility to foster a dependable and 
sustainable food and agriculture system and to provide 
nutrition assistance to millions of Americans in need.
    We also rely on farms and ranches and forests for the 
fiber, timber, and, increasingly, renewable forms of energy 
that are key elements of our economy and way of life. Rural 
America contributes greatly to our Nation's wealth, not only by 
supplying food and other resources, but also through a highly 
productive and dedicated workforce.
    Yet too often, the citizens of small towns and rural 
communities do not share in the wealth that they help to 
generate. And so another crucial role of the Secretary of 
Agriculture is as a champion of rural communities--dedicated to 
helping them succeed economically and obtain the necessary 
elements for a better way of life.
    The new Secretary of Agriculture faces stiff challenges--
many of them, of course, made harder by the economic downturn--
and yet there are solid reasons to hope and work for positive 
change.
    The rural economy and rural businesses are suffering, 
including in agriculture, where producers are once again in a 
cost-price squeeze, compounded by tighter credit. Yet our basic 
assets in agriculture and rural America are the envy of most of 
the world.
    Job losses and economic hardship will drive the need for 
nutrition assistance to record levels across America--rural and 
urban--and will strain USDA and State agencies to deliver this 
critically important help to families. The new farm bill 
strengthened this assistance as will, hopefully, the economic 
recovery legislation.
    At the same time, in the child nutrition assistance 
programs that we are due to reauthorize this year, we have a 
tremendous opportunity to help reform America's health system, 
save lives, and control health care costs. If we make sure that 
foods and beverages that kids consume in schools are more 
nutritious and healthier and properly balanced, we will prevent 
diseases and medical conditions that impair and cut short 
lives--and cost a lot of money to treat. We will need the 
leadership and help of the Secretary of Agriculture and USDA in 
writing this legislation.
    We have a huge challenge to conserve natural resources in 
the face of a growing world population and demand for 
commodities and raw materials. Farms and forests will be pushed 
for ever greater output. Doing so sustainably will require a 
much greater commitment to conservation practices on land that 
is in production through the Conservation Stewardship Program 
and similar initiatives.
    In renewable energy and other areas, we can and we must 
create and develop new opportunities in rural America, for 
example, for beginning farmers and in small and startup 
businesses. Producing livestock and poultry is vital to rural 
economies, and it is essential that markets in this industry 
are competitive and fair. The demand for locally grown and 
organic foods continues to grow--the fastest growing part of 
our food chain--providing new and expanding opportunities, 
again, in rural communities.
    USDA's food safety and inspection system needs 
strengthening, yet the progress that has been made shows that 
the system can be improved.
    With the number of hungry people in the world now reaching 
nearly 1 billion, we must instill hope by investing more in 
food and agriculture research and helping developing countries 
improve agricultural productivity so they will be better able 
to feed themselves.
    And among the most intractable challenges facing the new 
Secretary of Agriculture is the intolerable and inexcusable 
state of civil rights in USDA's agricultural programs and for 
USDA employees. It is essential that we find ways to work 
together to turn this situation around once and for all.
    So it is now my privilege to introduce--taking off my 
Chairman's hat, just now as a member of the Committee and as an 
Iowan--along with my colleague from Iowa, Senator Grassley, our 
Governor Tom Vilsack, President-elect Obama's nominee for 
Secretary of Agriculture. I can tell you from my long history 
with Tom Vilsack, he knows production agriculture and what is 
needed to promote profitability and a better future, including 
for beginning farmers and ranchers. He gained a lot of 
experience the hard way--representing farmers in wrenching 
financial situations as a county seat lawyer during the farm 
crisis of the 1980's, which was the first time we ever met.
    As the mayor of Mount Pleasant and as a State senator, he 
gained valuable experience and insights into the problems and 
needs and opportunities in our small rural communities.
    As a Governor, Tom Vilsack built a strong record in 
promoting renewable energy, rural economic opportunity, and 
conservation. He knows how to bring change that will help to 
strengthen and rebuild the farm and rural economy on a sound 
foundation. He has a proven record of working with all sides to 
seek the right resolution to environmental issues.
    He is solidly committed to better nutrition and providing 
food assistance to those who need it. He created the Iowa Food 
Policy Council to address the range of interlinked food and 
agriculture issues.
    Tom Vilsack's experience, his abilities, his dedication, 
and his relish for hard work will serve him well, and our 
Nation very well, as Secretary of Agriculture. And it will also 
serve him very well that he has as his wife and companion 
Christie Vilsack, our former First Lady, a teacher who made a 
great name for herself all over Iowa by promoting reading 
especially for young children, and our libraries and books in 
the State of Iowa, she just did a tremendous job in the State 
of Iowa.
    So, again, Governor, we welcome you to the Committee. We 
look forward to your testimony.
    I will turn to our Ranking Member Senator Chambliss and 
then to Senator Grassley for the purpose of introduction. 
Senator Chambliss.

STATEMENT OF HON. SAXBY CHAMBLISS, U.S. SENATOR FROM THE STATE 
                           OF GEORGIA

    Senator Chambliss. Thank you, Mr. Chairman.
    First of all, let me just say that I look forward to 
another productive and cooperative year with you, and 
congratulations again on being Chairman of this Committee, and 
you have been a great partner. We had some difficult tasks last 
year, but with your leadership we were successful in getting a 
farm bill passed, and I congratulate you once again on that 
also, and I look forward to this year.
    Chairman Harkin. Thank you.
    Senator Chambliss. And, certainly, Mr. Chairman, I am glad 
to attend this important hearing this morning to consider the 
nomination of Governor Tom Vilsack for the position of 
Secretary of Agriculture. With all the recent turmoil affecting 
every segment of our economy, I understand that the President-
elect would like to have his Cabinet in place as soon as 
possible. I look forward to reporting the nomination out of 
Committee and quickly approving the nomination on the Senate 
floor. A swift confirmation will ensure that the Department of 
Agriculture has the necessary leadership to fulfill its mission 
on behalf of the American people.
    Governor Vilsack, I congratulate you on your nomination, 
welcome you and your wife, Christie, to the Senate Agriculture 
Committee, and I am very pleased, Christie, to hear that you 
are a former teacher. My wife also taught school for 30 years 
in the public school systems in our State, so it is a special 
talent you have, and we certainly again welcome you to the 
Committee.
    I hope your visit today will be short yet productive. I am 
certain that today is a proud day for you, your family, and the 
entire State of Iowa. I would note that upon your confirmation, 
Iowa agriculture is certainly going to be well represented in 
both branches of Government. Along with Senator Harkin's 
chairmanship of the Senate Agriculture Committee and Senator 
Grassley's leadership on the Finance Committee as well as 
serving in the Minority on this Committee, it is difficult to 
imagine a scenario where corn, soybeans, and livestock will not 
be ably represented.
    As we discussed in our meeting in my office in the last few 
days, I know that you are eager to broaden your portfolio to 
represent our Southern commodities as well--commodities such as 
poultry, cotton, and peanuts--and that you desire to represent 
the entire U.S. agriculture sector and certainly not just one 
section of the country.
    As every member of the Senate Committee on Agriculture well 
knows, the position of Secretary is critically important not 
only to America's agriculture producers but to every U.S. 
citizen that consumes the products that our farmers produce. 
From overseeing the major commodity and conservative programs 
to administering the food and nutrition programs, the Secretary 
of Agriculture touches almost every sector of our society.
    Our most basic strength as a Nation resides in our ability 
to produce a safe, abundant, and affordable food supply. We are 
blessed that we can share this bounty not only with our 
citizens but with all the world as well.
    As with all sectors of the economy, American agriculture is 
experiencing very difficult times. Even though our farmers and 
ranchers earlier generally enjoyed higher prices, these were 
coupled with rising input costs. Unfortunately, many of them, 
particularly cotton producers, never experienced the high 
prices. They encountered the double misfortune of low prices 
and high input costs. In today's uncertain economic climate, 
USDA must closely monitor our production sector and ensure that 
any legislative priorities treat all areas of the country 
fairly so that they may, therefore, enjoy broad congressional 
support.
    As you know, the U.S. Congress overwhelmingly approved the 
2008 farm bill. Two Presidential vetoes had to be overridden to 
enact this law, and such broad support of farm policy is 
unprecedented in the Senate's long history. Although the 
current administration began the implementation of the 2008 
farm bill, now it will be your responsibility to complete the 
job.
    It is our hope to continue the important business of 
working with the Department to implement the law. Again, as we 
discussed in our meetings, sometimes the Department needs 
assistance in that regard in order to fully understand 
congressional intent to preserve the delicate balances of the 
2008 farm bill. The fact that the President-elect nominated you 
speaks to your high level of qualification to implement such an 
important piece of legislation.
    I know that you bring to Washington a great deal of 
experience as Secretary of Agriculture. You served two terms as 
the Governor of Iowa, where, according to a 2005 Iowa State 
University study, farm and farm-related employment make up 20 
percent of the workforce of your State. Much like my home State 
of Georgia, agriculture is the backbone of Iowa's economy. 
Whether it was encouraging energy security through the 
advancement of renewable biofuels or ensuring that we remain 
leaders in agricultural science and technology by advancing 
biotechnology issues, you served your State admirably as 
Governor and will no doubt bring those same qualities to USDA.
    In addition to implementing the farm bill, the Secretary 
must represent the interest of American agriculture in the 
negotiation of free trade agreements, work tirelessly to 
further open markets to our agricultural products, support 
international economic development through the provision of 
food aid, lead land conservation efforts, and expand job 
opportunities for our citizens in rural America. As the founder 
and former Chair of the Governors Biotechnology Partnership, 
you have a unique perspective and I hope will invest a 
significant amount of your time to resolve our biotechnology 
issues with our trading partners.
    As you are aware, many of these issues have persisted in 
spite of scientific vindication and favorable decisions in the 
World Trade Organization. I am optimistic that you are the 
right man to take on these challenges.
    Governor, I look forward to working with you, and I urge my 
colleagues to favorably report your nomination out of Committee 
and approve it on the Senate floor as soon as possible.
    Thank you, Mr. Chairman.
    Chairman Harkin. Thank you very much, Senator Chambliss, 
and let me repay your kind remarks by again welcoming you back 
to the Committee as Ranking Member--well, I did not mean it 
that way. I meant, welcome you back, in your capacity as 
Ranking Member. Of course, I prefer to be Chairman rather than 
Ranking Member. But we have had a great----
    Senator Chambliss. Do you want to swap or what, Tom?
    [Laughter.]
    Chairman Harkin. We have had a great partnership, and I 
look forward to that continuing, especially with the 
reauthorization of the child nutrition bill and all the other 
matters you mentioned. So it has been great working with you, 
and I look forward to another productive couple of years here. 
Thank you very much, Saxby.
    Now I will yield to my friend, my colleague from Iowa, 
Senator Grassley, for an introduction.

 STATEMENT OF HON. CHARLES E. GRASSLEY, U.S. SENATOR FROM THE 
                         STATE OF IOWA

    Senator Grassley. Good morning, everybody, and thank you, 
Mr. Chairman and Senator Chambliss. A very special welcome to 
Governor Vilsack and his wife, Christie, to the Senate 
Agriculture Committee. They are a great political team. Mrs. 
Vilsack is a policy person in her own right, so it is a very 
strong team coming to town to do the work of advancing our 
country.
    I am so pleased to see that one of the President-elect's 
Cabinet nominations is an Iowan, and I want to personally 
congratulate you, as I have a couple times privately, for your 
nomination and welcome you to Washington.
    I think the Committee is very fortunate to have someone 
appointed to be Secretary of Agriculture as Governor Vilsack 
is. He has been around agriculture in the family farm, as mayor 
of a small town, as a State senator, and as Governor of Iowa, 
and all of this is going to be a tremendous benefit to 
agriculture generally, but particularly to the institution of 
the family farm.
    When Governor Vilsack was elected mayor of Mount Pleasant, 
he inherited a rural community that was suffering the effects 
of the farm credit crisis of the 1980's. He witnessed firsthand 
how the farm crisis became not just a farm crisis, but a rural 
crisis. This experience will be extremely beneficial as he 
assumes the role of Secretary during a time of price 
volatility, exceedingly increasing input costs, and 
undetermined amounts of risk. I also look forward to your swift 
and speedy confirmation.
    Many of us in the Senate have worked hard in years to pass 
legislation to help restore competition in livestock markets 
and to make sure that marketing and production contracts that 
farmers sign with packers and livestock integrators are, in 
fact, fair contracts. We made some real progress in this regard 
by including important changes in the Farm Bill to the Packers 
and Stockyards Act to protect farmers from abusive contract 
terms.
    For a long time on this issue, I have worked with my 
colleagues Senator Feingold, Senator Harkin, and others to make 
sure that livestock and poultry farmers cannot be forced to 
sign away their rights through mandatory arbitration clauses in 
their contracts. In the 2008 farm bill, we finally included a 
provision to require that farmers be given a clear choice up 
front in their contract about whether or not they want to use 
arbitration to resolve disputes.
    I would also note that the 2008 farm bill requires the U.S. 
Department of Agriculture to do a rulemaking to define the 
Packers and Stockyards Act prohibition against ``undue and 
unreasonable preferences'' in which meat packers, swine 
contractors, and poultry dealers favor larger-volume producers 
over smaller-volume producers. I want to advance this important 
rulemaking as quickly as possible as it represents one of the 
most important immediate steps that can be taken to restore a 
fair and more competitive marketplace.
    I have also been a strong supporter of crop insurance. Iowa 
leads the Nation with the most crop insurance companies 
headquartered in our State and a very high participation and 
purchase of revenue policies. Crop insurance is a vital risk 
management tool, and it has helped Iowa farmers recover from 
devastating floods last year and is helping farmers cover 
losses from steep declines in commodity prices. Revenue claims 
are still being worked on in Iowa for last year, but I look 
forward to working with the new Secretary to strengthen and 
improve this vital risk management tool for our farmers.
    I will make just a quick comment about an issue that I have 
worked on for years, and you already know my interest in this, 
Governor. Payment limits are going to continue to be at the top 
of my agricultural agenda, although the farm bill has been 
signed now for a 5-year period of time. So I want to offer an 
open door to my office in the future to discuss this issue, and 
I am glad to hear anything you have to say about it.
    As Governor, renewable homegrown energy was at the 
forefront during your tenure as Governor. I am excited to work 
with you and the Department to further promote alternative 
fuels and focus on the commercial viability of advanced 
biofuels, the next generation. With contributions to green jobs 
and a cleaner environment, renewable energy will help decrease 
our dependence on foreign oil and keep that money here in the 
United States.
    Finally, as you know well, U.S. agriculture is dependent 
upon access to foreign markets. I hope to work with you during 
this Congress to pass implementing legislation bills for our 
pending trade agreements that will help level the playing field 
for U.S. farm exports.
    Once again, congratulations to you, Governor, and to Mrs. 
Vilsack.
    Thank you.
    Chairman Harkin. Thank you very much, Senator Grassley.
    Governor Vilsack, I have two things I have to do, first of 
all to administer an oath that we have to have from all 
nominees. Please stand and raise your right hand. Do you swear 
or affirm that the testimony you are about to provide is the 
truth, the whole truth, and nothing but the truth, so help you 
God?
    Mr. Vilsack. I do.
    Chairman Harkin. Thank you very much. And, second, 
Governor, do you agree that, if confirmed, you will appear 
before any duly constituted Committee of Congress if asked to 
appear?
    Mr. Vilsack. Absolutely.
    Chairman Harkin. Thank you very much. Well, Governor 
Vilsack, again, welcome. I just couldn't be more proud than to 
sit here this morning and to see you there and to contemplate 
your being the next Secretary of Agriculture. I have admired 
your work for so many years in Iowa, as I said, going back to 
the 1980's and your leadership as Governor. I don't think 
President-elect Obama could have picked a better person for 
this position.
    So welcome and, again, your testimony will be made a part 
of the record in its entirety, and you may proceed as you so 
desire.

STATEMENT OF THOMAS J. VILSACK, OF IOWA, TO BE SECRETARY, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Mr. Vilsack. Thank you very much, Mr. Chairman,
    Senator Chambliss, and members of the Committee on 
Agriculture, Nutrition, and Forestry for the opportunity and 
privilege to appear before you today. I particularly want to 
thank my fellow Iowans--Chairman Tom Harkin and Senator 
Grassley--for their kind introduction and, Senator Chambliss, 
for your kind remarks as well. I have long admired your work 
and service to our State and to our country, and I appreciate 
your kind words today.
    I also want to take this opportunity to acknowledge and to 
introduce to the Committee and to proudly thank my best friend 
and life partner, Christie Vilsack, who joins me today as she 
has during every step of my public life: as the mayor of Mount 
Pleasant, as a State senator, and as the Governor of the great 
State.
    Chairman Harkin. Would you stand up, Christie?
    [Applause.]
    Mr. Vilsack. Mr. Chairman, members of the Committee, it is 
a great honor and privilege to be nominated by President-elect 
Barack Obama to lead the Department of Agriculture at this 
crucial time. The last Iowan asked to serve as Secretary of 
Agriculture was Henry Wallace. He served with extraordinary 
distinction during a period of historic challenge. And I am 
very mindful of the high standard he set, the reforms he 
initiated, and the deep compassion he had for those who work 
our lands.
    Today, our country and the Department of Agriculture again 
face historic challenges. Farmers and ranchers experience 
volatile markets while credit tightens. Small towns and rural 
communities across the country continue to lose people and jobs 
while critical infrastructure crumbles. These towns and 
communities find it extremely difficult and increasingly 
difficult to keep pace with the ever changing national and 
global economy. Recent economic woes caused a dramatic increase 
in the number of Americans needing the food assistance programs 
under USDA jurisdiction. The Nation looks to our rural areas 
for a sustainable source of food and energy at the same time 
the world looks to America for leadership in combating global 
climate change.
    The health care crisis aligns squarely with the need to 
promote more nutrition in our diets. All of this is happening 
while the world population continues to grow at a rate that may 
in our lifetime challenge our capacity to grow and raise enough 
food. And if this weren't enough, a national treasure--our 
forests--are under attack by uncontrollable wildfires and 
invasive species.
    All of these serious challenges require a compelling new 
vision for the Department with the attention, dedication, and 
leadership to make it happen. The President-elect has called 
upon each of us to meet these challenges. If confirmed, I 
pledge to work with all the energy I have to do my part to make 
sure the Department of Agriculture does its part:
    To do its part in administering a robust farm safety net 
and create real and meaningful opportunities for farmers and 
ranchers to succeed;
    To guarantee that the communities where those farmers and 
ranchers live can grow and prosper;
    To help families that struggle to make ends meet each and 
every day to put food on their table;
    To place America at the forefront of efforts to 
aggressively address energy independence and global climate 
change;
    To enhance the safety of our food supply and reduce the 
incidence of foodborne illnesses;
    To work with those who seek programs and practices that 
lead to more nutritious food produced in a sustainable way;
    And to preserve and protect our national resources--our 
land, our water, and our forests.
    I am under no illusion about the difficulty we face, but I 
recognize the commitment that Congress has made with the 
passage of the 2008 farm bill. USDA's job is to implement that 
far-ranging piece of legislation promptly and consistent with 
congressional intent. If confirmed, I commit to work 
immediately to implement the 600 provisions and 15 titles of 
the farm bill, including prompt implementation of the 
Conservation Stewardship Program and the Disaster Payment 
Program, and to leverage the financial commitment of the farm 
bill and of the stimulus bill, if one is passed, with other 
public sector and private resources to realize the full promise 
of rural America.
    None of this will be possible without 21st century 
technology. We need to provide Congress with a workable and 
realistic plan to implement the technology changes necessary to 
bring this Department into the 21st century. If confirmed, I 
look forward to working with you to do just that.
    I will also take steps to enhance the role of the farm 
sector and rural communities in solving the great environmental 
and energy-related challenges our country faces. Toward that 
end, I will work with you to expand opportunities for farmers, 
ranchers, and rural communities to promote renewable energy 
technologies like biofuels, wind, solar, and geothermal, and to 
deliver the environmental benefits like clean air, clean water, 
and fish and wildlife habitat.
    One final comment, with the time you have provided to me 
today. The Department of Agriculture was founded by President 
Lincoln as ``The People's Department.'' The time has come for 
this Department to be the Department of and for and by all the 
people, by working hard to resolve the outstanding civil rights 
claims in program and employment practices. We need to close 
this chapter, and we need to begin looking forward. If 
confirmed, my message will be clear: Discrimination in any form 
will not be tolerated in this Department.
    I want to close by finishing where I began--by expressing 
my gratitude to the Chairman, the Ranking Member, and the 
Committee for the chance to speak here today; to President-
elect Obama for the confidence he has placed in me to do this 
job; to my family--Christie, Jess, Kate, and Doug--for their 
love and support; and to the people of my home State for the 
privilege they afforded me to serve them.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Vilsack can be found on page 
46 in the appendix.]
    Chairman Harkin. Thank you very much, Governor, for your 
statement.
    In the interest of time, we will go ahead and start, 
Governor, but we may have to interrupt any minute now to go 
over and vote. And we will see if we can just roll it, maybe. I 
do not know. We will have 5-minute question rounds for all the 
members of the Committee. Maybe we will not even have to recess 
for the vote; we will just change off back and forth here.
    The vote just started right now, so if anybody wants to go 
vote and then come back, then some of us will go after you come 
back.
    Mr. Vilsack. Mr. Chairman, I was hoping that the Committee 
would just simply leave----
    Chairman Harkin. Governor, again, my congratulations. I 
will just start off with a couple of questions.
    Senator Roberts. I love you. We will be back.
    [Laughter.]
    Chairman Harkin. Vote right, now.
    I want to start off on health care reform. Now, you might 
think, well, what has that got to do with the Secretary of 
Agriculture? One of the big priorities of President Obama's 
first year is health care reform and getting meaningful health 
care reform through Congress.
    We have a big role to play in that, this Committee and you, 
the Secretary of Agriculture, in reauthorizing our child 
nutrition programs--which we are scheduled to do this year. 
That is the only thing, really, that we have to do this year, 
is reauthorize the child nutrition programs. That is the School 
Lunch, the School Breakfast, and the Women, Infants, and 
Children Supplemental Nutrition Program.
    We had a hearing on child nutrition last month to kick it 
off. We covered how important USDA's child nutrition programs 
are to the ongoing debate about major health care reform in 
this country. I have been saying for a long time that our 
health care system needs to be reoriented toward prevention and 
wellness, and that is where USDA, through its child nutrition 
programs, can play an important role as we work to reform our 
health care system.
    That being said, I am curious just again to get your 
thoughts. Senator Daschle will be leading the new 
administration's effort out of the White House on health care 
reform. As I mentioned to him and to President-elect Obama on 
more than one occasion, they also really have to look to the 
Secretary of Agriculture, and this Committee, regarding how we 
reform and revamp our child nutrition programs.
    What role do you see for yourself in that? How can we 
strengthen the ability of our child nutrition programs to 
promote healthy diets and prevent chronic disease? That is kind 
of an open-ended question. I just want your basic thoughts on 
looking ahead this year to reauthorization of the child 
nutrition programs.
    Mr. Vilsack. Well, Senator, first of all, let me start off 
by thanking you and the Committee and the Congress for the work 
that you did in the farm bill to ensure that fruits and 
vegetables are now going to be more readily available and for 
the first time mentioned in the farm bill in a meaningful and 
significant way. I think that was an important beginning first 
step in the process.
    I have met with Senator Daschle and talked to him 
specifically about this issue, indicating my desire to partner 
with him and recognizing that if we are going to address the 
health care crisis is a meaningful and comprehensive way, 
wellness and prevention have to be at the core. And, clearly, 
at the core of wellness and prevention is nutritional eating.
    We have a great opportunity to make a very significant 
statement on that issue with the reauthorization of these 
nutrition programs that impact, in effect, over 30 million 
Americans.
    We can work with our schools to ensure that fresh fruits 
and vegetables are available. We can certainly begin the 
process of expanding what has already started in this country 
with local producers, establishing produce opportunities for 
local consumers. One of the challenges will be to ensure that 
people, A, know that this is available and, B, make sure that 
there are distribution systems in place to provide the quantity 
and the quality that will make this successful.
    I am committed to this. I think the USDA does have a role, 
an advisory role, a partnership with this Committee and 
Congress, and if confirmed, I look forward to working with you 
and the members of the Committee, offering our thoughts and 
suggestions, and I can absolutely guarantee you that we will be 
very aggressive in this area.
    Chairman Harkin. Well, I appreciate that. I would just 
again add, from my own viewpoint, that too many schools have 
vending machines stocked with unhealthy options. Too many 
lunchrooms have a la carte lines offering foods with too little 
nutrition, but loaded with too much sugar, fat, and sodium. It 
is unacceptable and it undercuts our Federal investment in 
school meals.
    I am heartened to have a President-elect who, while he was 
here in the Senate, introduced legislation to require USDA to 
set nutrition standards for competitive foods that are 
consistent with the recommendations of the Institute of 
Medicine. So I am looking forward to working with you and with 
the new President in that area.
    I want to ask you, Governor, about the Conservation 
Stewardship Program, included in the 2008 Farm Bill, that will 
enroll 12.769 million additional acres each year. We have to 
get that program on track--you mentioned it in your opening 
statement--so that producers can have an opportunity to enroll 
in this fiscal year.
    Do you know of any reason why the program could not be 
available to allow producers to enroll soon, this crop year, 
and certainly before the fiscal year ends in September?
    Mr. Vilsack. Well, Senator, I want to be as responsive as I 
can, but I also want to be candid with you. I need to have an 
opportunity to get into the Department, if confirmed, to 
basically find out what the barriers or the problems or the 
concerns have been in terms of implementation. My promise to 
you is to do this as promptly and properly as possible.
    I recognize that this is not only an opportunity to expand 
income opportunities for producers, but it is also great for 
the environment, and for water quality, in particular; and it 
also provides jobs, rural jobs. A lot of people sometimes 
forget that when you involve yourself in these conservation 
programs, somebody ultimately has to move the dirt or do work 
on the farm. That is rural contracting opportunities.
    So this is a job creator, it is great for the environment, 
and it is an income opportunity for marginal land. I am very 
supportive of this. We will do everything we possibly can. I 
don't want to make a firm commitment on time because I am just 
not sure about that. But I can tell you that it is going to be 
as promptly and properly done as possible.
    Chairman Harkin. Well, I appreciate that. I also want you 
to know that we are working on the economic recovery package, 
because as you said, that promotes jobs, puts people to work in 
rural areas.
    Mr. Vilsack. Absolutely.
    Chairman Harkin. Senator Thune, I am going to have to go to 
vote pretty soon, but go ahead, Senator Thune.
    Senator Thune. Thank you, Mr. Chairman. I will try and hold 
things down until you get back, but thank you for scheduling a 
timely hearing. Governor Vilsack, thank you for your 
willingness to serve America's farmers and ranchers and 
foresters as the next Secretary of Agriculture, and 
congratulations to you and welcome to the Committee. We look 
forward to working with you.
    Your nomination comes on the heels of a very historic 
period in American agriculture, which has primarily been fueled 
by the production of renewable energy and increased demand for 
America's agriculture products. And there were two historic 
pieces of legislation that were enacted in the last Congress, 
one being the new farm bill, the other an energy bill, which 
required a historic 36 billion gallons of renewable fuel by the 
year 2022. And there are a lot of challenges when it comes to 
implementing those pieces of legislation that we are current 
faced with.
    The renewable fuel industry is really struggling. We have 
got a lot of plants, as you are aware of in your State, as well 
as in mine, that have declared bankruptcy or furloughed 
production. Those plants that are operating are very likely 
operating in the red. After some good years in agriculture, now 
we have got a time when we are faced with a lot of uncertainty. 
Land, fuel, and seed costs continue to go up. Commodity prices 
are down sharply. The global recession is likely to mean 
weakening demand for corn, soybeans, wheat, and beef this year, 
and most analysts are predicting a drop in net farm income for 
the year 2009.
    So you come into the job at a time when it is going to be 
really important that we craft policies that will keep rural 
America strong and keep America's energy supply secure. In that 
vein, I would like to just ask a couple of questions, if I 
might, with regard to the renewable energy industry. I 
discussed with you in a previous meeting my concern about what 
we refer to as the ``blend wall,'' and that is the wall that we 
run into with E10 that is going to make it very difficult, I 
think, for our ethanol producers to be profitable, to operate 
in the black. That is a point where the supply of ethanol is 
going to exceed the demand. And I think part of that is a 
function of the fact that we only allow 10-percent blends.
    I am very interested, as are many of my colleagues--I think 
the Chairman as well--in seeing us move to 15 to 20 percent 
blends, as well as to develop the infrastructure that is 
necessary to keep the ethanol industry strong in this country.
    So I guess I am curious as to what your thoughts are with 
regard to E15, E20, and, if confirmed, will you work with the 
Department of Energy and the EPA to approve higher blends of 
ethanol in the near future?
    Mr. Vilsack. Senator, thank you for asking that question, 
and, first of all, thank you for giving us an opportunity to 
reflect on the difficulties and challenges that the farmers in 
our area of the country and, for that matter, all areas of the 
country face. I think sometimes people don't appreciate and 
understand how difficult it is to put a crop in, that you have 
no control over input costs, you have no control over the 
weather, you have little control over what the markets will pay 
for your product. And so it becomes very, very difficult. That 
is why it is very, very important for us to look for ways to 
expand income opportunities for those who farm and those who 
ranch.
    One of those opportunities that was presented recently is 
the whole biofuels opportunity. That has raised some serious 
issues and some challenges, as you and I discussed in your 
office, about whether or not there is a linkage between our 
efforts to use some of our crops for fuel and rising food 
costs. And I think that we have to take an opportunity to 
address that, to educate people about the fact that there are 
many, many reasons why food prices have gone up that are not 
necessarily related to biofuels.
    Having said that, to meet the demand, whether it is the 
existing law or whether it is additional blend requirements, to 
meet the law will be a challenge unless we do a better job of 
accelerating research and development on a variety of second 
and third generation feedstocks for biofuels. There are issues 
involving the nature of those feedstocks, the processing 
opportunities that they present, and challenges, the 
transportation issues that are involved, the capacity to store, 
storage issues that are involved. All of those have to be 
looked at, and I think in a very accelerated way. We have to 
begin the process of trying to answer some of those challenges.
    I think USDA has a very, very important role to play in 
making sure that we indeed provide the research and the focus 
and the direction to meet whatever the requirements are.
    I will also say that I look forward to working with Lisa 
Jackson at EPA. We have had a conversation about this, and I 
think she recognizes the important role that EPA plays 
generally in agriculture. And we talked and discussed about the 
fact that there will be someone with agricultural background in 
the EPA, so we can have a good dialog and communication. So I 
look forward to working with her, I look forward to working 
with you, if I am confirmed, to really doing it right in terms 
of second and third generation biofuels.
    Senator Thune. [Presiding.] Among the many steps that can 
be taken is the increasing of the blends, and I know there are 
a number of issues that you will have to look at, and this 
whole debate about food versus fuel, which I think has been 
exaggerated by those who are opposed to increased biofuels 
production in this country. But, frankly, moving toward next-
generation biofuels, cellulosic ethanol, is going to be really 
important in terms of responding to those concerns and a public 
that I think wants to see both objectives achieved, and that 
is, increasing use of renewables but also keeping food costs at 
a reasonable level.
    That being said, as we move toward these other types of 
biomass that we can use in production of biofuels, there are 
some concerns that we have about EPA considering international 
indirect land use changes and how they do greenhouse gas 
analysis under the renewable fuel standard. And I guess the 
question would be: How should EPA measure or model such 
emissions and ensure that those land use changes directly 
related to U.S. production of ethanol are considered during the 
analysis? And do you agree that those types of analysis ought 
to be based upon the most verifiable and sound data available?
    What I am getting at, I know it is kind of a big-picture 
type question, but we are very concerned about some of the 
metrics that might be used to determine whether or not ethanol 
and greenhouse gas emissions, life-cycle greenhouse gas 
emissions, how they are impacted by crop production patterns as 
we continue to grow the use of renewable energy.
    Mr. Vilsack. Senator, I think that is one of the reasons 
why EPA-designee Jackson came into my office to talk about the 
need to have someone in her Department that would be able to 
relate and be aware of and appreciate those challenges. I must 
say that I have a lot to learn in this job, and you have 
touched on an area that I have a great deal to learn, and I 
hope that you will permit me the time, if confirmed, to learn 
more about this.
    Let me generally say there are many issues in agriculture 
that involve this issue of data and sound science, and I think 
it is important and necessary for us to indicate as a general 
philosophy that what we should be doing and what we should be 
looking at is making decisions based on sound data and sound 
science; that we ought to be very comfortable with the data and 
very comfortable with the science. It seems to me that is the 
only way to make a good decision.
    It goes back to the comments that I made in my opening 
statement about technology. One of the concerns I have about 
USDA's capacity to give you information or to allow you to do a 
proper oversight responsibility that you have is that it may be 
difficult for us to accumulate data, to obtain data, with 1980-
ish software. And so one of my focuses, if confirmed, will be 
to try to get the technology to a point where we bring it into 
the 21st century, we give you information and data that you can 
rely on and that you can make--and that we can rely on to make 
decisions and that we can use to hold people accountable for 
the work that they do.
    I recognize that there have been many plans and discussions 
about technology, and the Department obviously has a 
responsibility of providing you with a plan that is realistic, 
that is priced properly, that is a timeline for implementation 
that is reasonable. And if confirmed, I intend to make sure 
that happens.
    Senator Thune. Thank you, Governor. We look forward to 
working with you, and I now will go vote and hand it over to 
the Senator from Indiana. Thank you very much, sir.
    Mr. Vilsack. Thank you, Senator.
    Senator Lugar. [Presiding.] Governor, I appreciated very 
much your opening statement and specifically that you talked 
about communities where farmers and ranchers live. This is more 
of a conversation than a question, but one of the remarkable 
things about the building of the corn ethanol plants in my 
State--and I am certain that was true in yours--was that it 
literally revived a number of counties that had severe losses 
of population over the course of time, a severe loss of tax 
base for their schools, chambers of commerce becoming moribund, 
and there appeared really to be no reason, despite attempts by 
the State government from time to time, to reinvigorate 
counties by inducing manufacturing plants or those involved in 
high-tech or what have you to come to those communities. As a 
matter of fact, those groups that invested in our State came 
largely to the Indianapolis area or the Chicago-Louisville-
Cincinnati areas that bordered our State.
    Suddenly a transformation occurred in a fairly short period 
of time, and it was not just simply the really small amount of 
revenue relatively that came in the plants but, rather, a hope 
that somehow, because of biofuels and the additional uses of 
agricultural products, something new could occur.
    I know you have looked at this from the standpoint of your 
entire State, as I have tried to. This is extremely important 
to my State, and I am very hopeful that trend will continue. 
The dilemmas are obvious for anybody involved in that business 
presently, and that is the enormous change in the price of 
corn. Going in 1 year from $4 to $8, coming all the way back 
down to $3 is breathtaking in terms of not only of the ethanol 
plants, but corn farmers such as myself and Senator Grassley. 
We follow these things intensely and compare notes, really, on 
our marketing of corn.
    So as I go to meetings with people now involved with seeds, 
with fertilizer, quite apart from corn farmers or soybean 
farmers or those who are feeding livestock, to say the least it 
is unnerving. As some farm writers have pointed out, these 
meetings have many more farmers coming to them this year 
wanting to know what is going to happen, and that is always a 
question in agriculture.
    I suppose the question I have of you is: How can the 
Department sustain this hope? We have had mandates of gallons 
of ethanol that must come. We have hopes that there will be a 
higher percentage of ethanol beyond the 10-percent mix, and 
that will be a very important factor presently. Soy diesel 
plays a small part, and now the cellulosic ethanol situation of 
the first plants that appear to be able to use some stock from 
the fields without knowing the transportation problems, the 
logistic support, quite apart from the whole marketing effort, 
which has been jimmied at the filling station where oil 
companies frequently have rejected the agricultural product 
rather than it having side by side.
    I am just wondering, as you have surveyed the scene, what 
kind of force leadership can you bring not only to the 
Agriculture Department but to the administration, to the 
Cabinet, to the attention of President-elect Obama--who I know 
shares many of these thoughts from his experiences in Illinois, 
but at the same time is going to need some vigorous proponents 
such as yourself who are able to be marketers for agriculture 
in the broadest sense. And biofuels is certainly on the horizon 
of something that remains very big for all of us in 
agriculture.
    Mr. Vilsack. Well, Senator, first of all, I would say that 
I am not familiar with your farming operation, but if I were 
you, I would be listening to Chuck Grassley. He does pretty 
well for himself.
    [Laughter.]
    Senator Lugar. Mercy.
    Mr. Vilsack. You ask a very critical question about really 
the future of rural America, and let me begin by saying that 
there is no simple, easy answer or a quick answer to the 
question you have asked.
    First and foremost, it is important and necessary for the 
USDA to continue to look for ways to expand income 
opportunities for farmers, and the biofuel area is one, but not 
necessarily the only area, that can provide hope. The 
Conservation Stewardship Program provides hope, and also 
renewable energy. Wind in my State has been quite successful in 
increasing income opportunities and also creating new 
manufacturing jobs in smaller communities.
    So, first and foremost, a combination of aggressive, 
focused effort, particularly in the rural development area of 
the USDA, can help create these opportunities or create the 
impetus, partnerships, leveraging private resources, public 
resources, working with State economic development groups. I 
know these programs quite well, and I am going to encourage, if 
I am confirmed, that we really look for opportunities to reach 
out to these economic development folks and figure out ways in 
which we can help them put the package together.
    Second, I think it is important that we maintain the 
infrastructure that exists today. You mentioned the challenges 
today that ethanol producers face and ethanol production 
facilities face. The margins are very, very small, and, 
frankly, you are going to have to be a very efficient manager 
over the course of the next several years to do well.
    We can help with our research and development component by 
figuring out ways in which the processing of ethanol can be 
more efficiently done in a less energy-intensive way, in 
getting more out of whatever feedstock we used. That is a 
research opportunity. Likewise, we can begin to really focus 
our research on the second and third-generation feedstocks and 
all the issues that you mentioned--the transportation issues, 
the storage issues.
    We can work with States to promote best practices in the 
marketing of ethanol. One of the things that we did in Iowa was 
to offer a tax credit to the distributor of the ethanol 
product, suggesting that when they reached a certain volume of 
sales, they would qualify for an income tax credit. That is an 
innovative and creative way. It resulted in competitive pricing 
for ethanol. Consumers then responded to that competitive 
price, and the ethanol industry grew.
    I think it is also important and necessary for us to 
recognize that it is not just corn and not just the Midwest 
that needs to benefit. As Senator Chambliss suggested, we have 
a very diverse agriculture in the country, and we need to look 
for ways in which we can bring all regions of the country, from 
our forests to other farm products, to figure out ways in which 
we can create second and third-generation biofuels, and even 
waste product, looking for ways in which we can replicate what 
nature does, where there really isn't such a thing as waste in 
nature. Everything has a purpose.
    So there are exciting possibilities, and I think it is 
important for the Secretary of Agriculture to be a champion for 
those opportunities. This is an extraordinary Department. It 
has extraordinary reach, and it is an opportunity to educate 
people about what USDA does for them every single day.
    So I would say research and development, the rural 
development programs, making sure that the infrastructure is 
maintained, and creating new and innovative ways to market the 
product are some of the ideas that I think USDA, if I am 
confirmed, will try to put into effect.
    Senator Lugar. I know my time has expired, but I just want 
to make a quick comment before yielding. That is, I note in the 
USDA reports of the last couple of days that people are 
dismayed that there is more corn left over from last year than 
anticipated, more soybeans. The futures markets have not 
crashed but, nevertheless, the price changes in the last 2 days 
have been tremendously significant.
    Now, this is in the face of a hungry world, and obviously 
the trade system is so bollixed up that even though we are able 
to produce, we are not able to get this food to people around 
the world who need it. And I read that the Chinese are paying 
their soybean farmers very high prices to relieve a political 
problem, buying our soybeans at a much lower price, thus 
providing some exports to us. It is a strange mix, and I 
encourage you to take a look at how we get through the World 
Trade Organization proposition, because this really ties up 
American agriculture that wants to be productive and with a lot 
of produce out there right now.
    Mr. Vilsack. If I might, with your permission, Senator, I 
would certainly agree with that and also suggest that it is an 
opportunity for America to put a slightly different face on its 
image worldwide by the use of our capacities, our technologies, 
our knowledge, and our food products to basically put it--you 
know, to challenge the world as the President-elect has 
challenged us. He wants us to end child hunger in this country 
by 2015. That is a challenge we should take seriously. There is 
no reason why we shouldn't challenge the rest of the world to 
work with us to do the same globally.
    Senator Lugar. Thank you.
    Thank you, Mr. Chairman.
    Chairman Harkin. [Presiding.] Thank you, Senator Lugar, and 
now I turn to Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Governor, my colleague on the House side, and actually my 
Congressman who represents the 2nd District of Georgia, stopped 
by a little earlier after my opening comments just to ask me to 
convey to you his strong support of your candidacy. Even though 
the House doesn't get to go through the confirmation process, 
he wanted to make sure that you understood that he is a strong 
supporter of your nomination.
    Governor, as a Member of the Senate, I have been very 
concerned that the administration has liberally interpreted 
language in the farm bill and at times has gone beyond the law 
as written and disregarded the accompanying report language.
    For example, the final rule for the Direct and 
Countercyclical Program and Average Crop Revenue Election 
Program published December 29, 2008, makes a change to farm 
bill commodity programs that was never intended by us when we 
drafted the farm bill and passed it. The following is a quote 
from the supplementary information contained in the rule: ``In 
addition to changes required by the 2008 farm bill, this rule 
provides that for the 2009 and subsequent crop years, crop 
acreage bases will be determined with respect to land owned by 
Federal agencies.''
    The language itself expresses that this termination of base 
acres is not a statutory requirement. Governor, last year, 
Congress had to act to suspend language regarding the 10-base-
acre provision for 2008 because USDA ignored report language 
that accompanied the farm bill. This additional requirement 
takes us even further from the congressional intent.
    Now, simply for the record, Governor, will you pledge to 
adhere to congressional intent in implementing the 2008 farm 
bill and, if there is a question, that you will consult with 
members of this Committee?
    Mr. Vilsack. Senator, that is a very fair question, and I 
would say that it is my responsibility to do what is necessary 
to promptly and properly implement the farm bill that you all 
passed. I know you worked on it for 2 years. It is an 
extraordinary piece of legislation. I know that it is important 
to Members of Congress that whatever compromises and decisions 
that were made to reflect the diversity of agriculture that are 
reflected in that bill be carried out. And I think it is 
important that what we do is consistent with congressional 
intent, and I would certainly want to work with you and other 
members of the Committee and the Congress to make sure that we 
are following what your intent is.
    I am not going to tell you today that there might not be a 
disagreement from time to time, but I will you this: that if 
there is, I will be available to respond; and if there is a 
mistake or a problem, we will rectify it as quickly as we can.
    Senator Chambliss. We did have a disagreement with the 
current administration over this 10-acre-base issue, as I 
alluded to earlier. Can we get your commitment to revisit that 
issue?
    Mr. Vilsack. You know, Senator, I think it is a fair 
statement to say that when I get into office, if I am 
confirmed, I have a lot to learn and a lot to review. And it is 
my intent to become fully familiar with all the decisions that 
have been made to make sure that as I go forward, the decisions 
are carried out properly.
    If there is a problem, I am happy to work with you to work 
through that problem. I honestly, as I testify here today, 
don't know as much as I need to know or certainly don't know as 
much as you know about this issue, and I am at a little 
disadvantage. But I will work with you. I commit to doing that.
    Senator Chambliss. That is fair enough.
    Again, just for the record, you and I have talked about 
this issue, the fact that American agriculture is truly 
American agriculture. And while the Midwest is often talked 
about as the breadbasket of America, we have an awful lot of 
production agriculture all over the country, whether it is in 
the West or the Northeast or the Southeast. And you have told 
me you are going to make sure that all segments of agriculture 
are represented in the Department, and I appreciate that and I 
appreciate your confirmation of that fact today.
    Thank you very much, and, Mr. Chairman, I have got some 
other questions, but for the sake of time, I am going to submit 
them for the record and ask that the Governor respond to those 
in writing.
    [The questions of Hon. Saxby Chambliss can be found on page 
134 in the appendix.]
    Chairman Harkin. Thank you very much. It is the intention 
of the Chair to allow second rounds of questions. I know some 
Senators are at other hearings, other nomination hearings, and 
they told me that they would be coming in perhaps later.
    It has been the order of business of this Committee that 
the Chair would recognize Senators in order of their appearance 
here, other than the Ranking Member, of course, and that would 
mean that Senator Grassley would be next. But, Senator 
Grassley, Senator Casey has something he said he has to do, and 
I wondered if you would mind yielding to him before that.
    Senator Grassley would yield to Senator Casey for this 
round.
    Senator Casey. Mr. Chairman, thank you very much, and I 
want to thank Senator Grassley. I have to preside this morning. 
That is one of our duties here in the Senate. We cannot wait 
for that freshman class to take over more of those hours.
    [Laughter.]
    But, Mr. Chairman, I want to commend you for your 
leadership of this Committee in the 2 years that I have been in 
the Senate and congratulate you on another tenure as Chairman 
coming up and the work you do with the Ranking Member. We 
appreciate that. We are grateful.
    I do want to commend especially Governor Vilsack for taking 
on this responsibility of putting yourself forward again for 
public service. It has already been a remarkable career of 
service, as mayor, as State senator, as Governor, and now as 
the nominee for the Department of Agriculture, to run that 
Department, at, I would say, a difficult time in our Nation's 
history--tight budgets, economic crisis, the challenge of 
helping our farm families and helping our farm economy. And we 
are grateful that you are willing to do that at a difficult 
time. I will not support your nomination because you have roots 
from Pennsylvania, but it doesn't hurt.
    [Laughter.]
    Senator Casey. I should make a decision based upon other 
factors. But I am especially grateful that your family is here, 
your wife, Christie, and your family, and that you brought Doug 
Campbell along with you, a Pittsburgher, who we are very proud 
of, a good man. And I am also grateful that you have spent all 
these years rooting for the Pittsburgh Pirates, even when 
things have not gone well.
    [Laughter.]
    Senator Casey. We figure that your geographic proximity now 
will help them win in the years ahead.
    I wanted to, in the limited time that we have, raise two 
issues--one which we probably will not be able to delve too 
deeply into, which is child nutrition. There is a lot to talk 
about there. But I did want to raise, first of all, the dairy 
issue, which for me I tend to be a broken record because it has 
got to be part of my middle name because of the challenge that 
dairy farmers and families face across the country, but in 
particular in Pennsylvania.
    As you well know, Governor, dairy prices have fallen by 
some 50 percent in just a few weeks. The latest projections are 
that dairy farmers in Pennsylvania will lose $65,000 this year, 
each one, on their milk due to unexpected and extremely low 
prices. As you know from your roots in our State and from your 
knowledge of Pennsylvania and the country, for our State 
agriculture is our large industry, and the dairy segment of 
that is the largest segment.
    You know the issue with powdered milk, the reporting error 
that cost $50 million for losses. We know that there is a 
problem in the Department that was responsible for that. And I 
would ask you on that, but also in a broader way, if you would 
work with me and work with others to try to provide 
reimbursement for dairy farmers, and also to take a look at the 
statutory authority and the discretion you would have to 
directly help dairy farmers. And I just wanted to get your 
perspective on that.
    Mr. Vilsack. Senator, you have alluded to a very serious 
issue as it relates to one segment of agriculture, and it is 
certainly not limited necessarily to Pennsylvania. As you well 
know, there have been some very tragic circumstances in 
California with dairy farmers who have been so stressed that 
they have taken their own lives. This is something that is 
reminiscent of what we certainly saw in the Midwest in the farm 
crisis of the 1980's. And it is a serious consequence, and I 
think it is important for us to look for ways in which, through 
the USDA and the Federal Government, we can assist in relieving 
some of this stress at this important time.
    The problem is that when you get into these stressful 
circumstances, then some people decide to liquidate. That then 
creates a glut, and that further depresses prices. So we need 
to figure out ways and strategies in which we can create some 
sort of glidepath that basically provides stability in this 
industry. And I am, if confirmed, certainly willing to work 
with you and other members of this Committee, who I know value 
this very much, to help figure out strategies and ways in which 
we can create that kind of stability that is required.
    I think it is also important--if I can just take your 
question one step further, I think it is also important to 
recognize the important role, again, that rural development 
plays in providing opportunities that supplement and support 
farm income. In my State in particular, I know that there are 
an awful lot of folks who work off the farm as well as on the 
farm. And as we strengthen rural communities, as we invest in 
infrastructure, as we create healthier communities, we create 
more job opportunities that in turn provide opportunities for 
family members or even farmers themselves. That is not 
necessarily true of dairy because it is a 24/7 job. But the 
concept of a spouse or a child being able to work off the farm 
can help supplement that income, and that is an important role 
that USDA could play.
    As to the specific question you ask about reimbursement, as 
I testify here today, I am not as familiar with that issue as I 
perhaps should be, and I don't want to make a commitment that I 
can't keep. I hope you appreciate that. But I will, obviously, 
by virtue of your question, if confirmed, get up to speed on 
this quite quickly and be glad to visit with you about it.
    Senator Casey. Thank you so much, and I know I am close to 
being out of time, but I wanted to raise quickly--and, Mr. 
Chairman, I will submit questions for the record as well, which 
will amplify what I will ask you about on the issue of child 
nutrition. But I know that, among other things this Committee 
has done well, we have spent a lot of time and put a lot of 
resources into nutrition generally. And I want to thank the 
Chairman for that, and others.
    President-elect Obama has made a commitment to ending 
childhood hunger by 2015, a worthy goal and one that we should 
all be committed to. Is there anything you can tell us about 
changes with regard to policy in the Department of Agriculture 
that you would want to make a priority? Or is there anything 
that you have begun to focus on in that area?
    Mr. Vilsack. Senator, I met with Senator Daschle just a 
couple of days ago in an effort to send the message to him as 
he, if confirmed, assumes the enormous responsibility of taking 
on our health care crisis, my recognition and understanding as 
a Governor how important wellness and prevention is to the 
ultimate success of health care debate. The President-elect 
challenges us, as you indicated, to end child hunger by 2015. 
That also intersects in the same place that the health care 
discussion intersects, which is nutrition. And in order for 
nutrition to be advanced, it is going to be important for us to 
continue to promote fresh fruits and vegetables as part of our 
children's diets and, for that matter, as part of all of our 
diets. That means that we need to look for ways in which we can 
support those who provide those products and also support those 
who provide them so that they can be locally purchased--locally 
grown and locally purchased.
    I think there are tremendous opportunities for us to re-
engage all of us in this effort. You know, my hope would be 
that with the President-elect's leadership, we would not just 
simply grow fruits and vegetables in rural communities, but 
that we grow them everywhere, and that we make a serious effort 
to market good eating habits as a way of helping your country, 
if you will. I want to be part of that, if confirmed.
    I think it is also important, as you reauthorize the child 
nutrition programs, there is obviously a critical component 
that USDA can play in providing advice and direction and a 
framework that you might consider as to how those programs 
could help move toward the President-elect's goal of ending 
hunger.
    And there is also, obviously, during these tough economic 
times, assistance to food banks. If there are surplus products, 
then we need to figure out ways in which we can get those 
surplus products to food banks to people who actually need the 
food.
    You know, if you take a step back and you take a look, even 
with the difficulties we face today, this is a powerful, rich 
country. And none of us should be satisfied that there are 
children going to bed hungry. They are the future of this 
country, and if they are hungry, they will have more difficulty 
learning. They will most likely get sick or sicker, which 
creates additional problems. So this is something that needs to 
be aggressively addressed.
    Senator Casey. Thank you very much. I look forward to 
working with you.
    Chairman Harkin. Thank you, Senator Casey.
    Senator Grassley?
    Senator Grassley. Governor, once you are confirmed, I would 
like to have you take a look at a letter that I sent to the 
Department NRCS early in December. It deals with something I 
know you know well about--the situation in Iowa. You have been 
a champion for conservation in Iowa, and you know about the 
flooding situation that we had. Iowa has some serious needs for 
emergency watershed dollars that are there. I would like to 
have you look into this and find out why more of our EWP money 
has not been allocated to the States yet.
    Mr. Vilsack. Senator, I will certainly--if confirmed, that 
will be a question that I will be happy to ask and see if I can 
get an answer for you.
    Senator Grassley. OK. Thank you.
    Mr. Vilsack. And I hope, if confirmed, that I do as good a 
job as you have done in your career of responding to letters 
and constituent concerns.
    Senator Grassley. Well, thank you very much. I appreciate 
that. And thank you for the good words about me. Thank you.
    No. 2, throughout numerous administrations, the U.S. 
Department of Agriculture has struggled with civil rights 
issues. I think you spoke to this in your opening statement, so 
that is a pretty strong statement you made. You have 
acknowledged it as a challenge and will be working from day one 
to resolve outstanding backlogs and claims. So I would like to 
get--it might tell us where you are coming from if you could 
tell us while Governor--and I don't remember from the times you 
were Governor this specific issue, but were you ever challenged 
at the State government level with civil rights complaints? And 
how were they ultimately settled and what role as a leader you 
might have had in that?
    Mr. Vilsack. Senator, toward the tail end of my second 
term, issues were raised concerning allegations or concerns in 
employment practices in the hiring of minorities in State 
government. We commissioned with the NAACP a study to determine 
precisely what the cause or causes of these problems were. That 
report was issued just as I was leaving office, and I know that 
Governor Culver made a commitment to follow through on the 
recommendations and changes in employment practices.
    What I learned from that experience and what I would share 
with this Committee is that discrimination comes in a variety 
of forms, and most often when we think of discrimination, we 
think of it in the form of very obvious discrimination. But 
what is also, I think, the case is that there is sort of 
implied discrimination, inherent discrimination in terms of how 
people ask questions and how they interpret answers when they 
are interviewing individuals for jobs. And I think we have to 
be sensitive to that.
    So from that experience, I am quite sensitive to the 
employment practices issue within USDA, and one of the things I 
hope to be able to do, if confirmed, is to send a very clear 
message that we have to be very sensitive to all of these 
issues and that we have to do a better job than we have done in 
the employment area of making sure that opportunities are open 
for everyone and that there is not some kind of implied bias or 
prejudice that we may not even be aware of. We have to be very 
aware of this, very sensitive to it.
    I think it is also important for us to set very clear 
expectations in all of the programming of USDA, that it is to 
be made available to everyone, that everyone should have an 
equal opportunity of participation. We want everybody to 
succeed. We all benefit when that happens. And I think there 
are technology issues; I think there is the need for clear 
directives. I think you recognized all of this in creating the 
outreach program in the farm bill. I am looking forward to 
working with folks to create, if confirmed, an outreach and 
advocacy program that makes sure that people understand what 
the programs are, make sure that they understand precisely what 
they have to do to be able to qualify to apply. And we need to 
take a look at the application process. Is there some hidden 
message in the way in which we make people apply for these 
programs?
    I can remember distinctly as Governor coming into office, 
in the child health care program, and I asked to see the 
application for the children's health insurance program, which 
we call ``Hawkeye'' in our State. I was surprised to see it was 
14 pages long. So I started filling it out. I have got a law 
degree, I am not the sharpest pencil in the box, but I quit 
about page 3. I thought, My gosh, I don't know the answers to 
all these questions.
    So, I mean, I think there is a lot that needs to be done to 
send the message and to get the results that you all have 
expected us to get for quite some time that you have not been 
satisfied with, and you have every reason not to be satisfied.
    And then there are the lawsuits. I mean, there are a 
multitude of lawsuits, and having had some experience in class 
action litigation, I mean, there is work to be done to get 
these matters resolved and to have justice realized. And that 
ought to be--the USDA ought to be about that. And if confirmed, 
I am going to do everything I possibly can to make sure that 
message is clear.
    Senator Grassley. Mr. Chairman, could I please ask one more 
question? And I will not come back for a second round then. 
Thank you.
    You probably know that I spend a lot of time is what is 
called oversight here, and some of our information from 
oversight comes from people that I honestly believe come to us 
in the Congress when they have no other place to turn and 
haven't been heard elsewhere. We call them ``whistleblowers.'' 
Sometimes that is used as a denigrating term. I don't use it 
that way. I value candid, unfiltered information that Congress 
gets about executive branch activities. Many whistleblowers 
often come forward and face retaliation by agencies they work 
for, and that retaliation may be as straightforward as being 
terminated, and it could be cloaked as reassignment or shifting 
of duties to kind of drive people crazy in their job. Either 
way, this retaliation is exactly why Congress passed the 
Whistleblower Protection Act of 1989 and countless other laws 
containing such protections.
    I would like to have--I know the word ``commitment'' is 
probably difficult for you to deal with because you don't know 
what you face, but could you give me sort of where you are 
coming from that there will not be retaliation against 
Department of Agriculture whistleblowers and instead work with 
them to address concerns that they raise; where you might be 
coming from in ensuring that every whistleblower is treated 
fairly, and that those who retaliate against whistleblowers are 
held accountable?
    Mr. Vilsack. Senator, first of all, let me say that my hope 
would be that we never have to have a whistleblower. My hope 
would be that, if confirmed, we would run a Department where 
employees who felt that they were not being treated fairly had 
some avenue within the Department for resolution and that we 
were fair and reasonable in trying to resolve difficulties.
    If for whatever reason we fail in that effort, despite the 
effort, there obviously needs to be a way in which you can do 
your constitutionally required job of making sure that I am 
doing my constitutionally required job. And I don't have a 
problem with that, and I don't think we are going to tolerate 
punishment or making it more difficult for people who tell the 
truth. I don't think that is a very good signal to send about a 
Government.
    We will make mistakes, and I am here to tell you today 
while I am concerned about making commitments, I can make this 
commitment: We will make mistakes. But I hope that we learn 
from them, and I hope that we are large enough to acknowledge 
them.
    Senator Grassley. I will end with one sentence, and it 
comes from your use of the word ``truth,'' people expressing 
the truth. The grandfather--I call him the ``grandfather of 
whistleblowers,'' Ernie Fitzgerald, a Pentagon whistleblower. 
He says, ``The only thing whistleblowers are guilty of is 
committing truth.''
    Thank you, Mr. Chairman.
    Chairman Harkin. Thank you. Thank you, Senator Grassley.
    Again, the list I have in order of appearance, next would 
be Senator Leahy, then Senator Roberts, Senator Lincoln, 
Senator Klobuchar, Senator Cochran, in that order.
    Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. I want to thank you 
and Ranking Member Chambliss for holding this.
    Governor, it is great to see you. It is always great to see 
you. And, Mrs. Vilsack, I am delighted about what you have done 
on reading. My sister, Mary, runs an adult basic education 
program in Vermont, and teaching people to read, especially at 
an early age, is so important. I compliment you on that, and I 
hope while you are in Washington you have a chance to do even 
more of that.
    You notice I say ``when you are in Washington,'' because I 
fully expect you to be confirmed, Governor. I was pleased when 
the President-elect announced that he was going to nominate 
you. I think it is great. Of course, as you know, here we have 
people with all kinds of parochial interests, but we also have 
a general interest in the whole country in agriculture. And you 
and I had a very good chat in my office, and I know dairy has 
been mentioned. That is of significance in our State, but 
organic is, too. I wrote the first Organic Production Act back 
in 1990 when people thought it might be just a niche thing. 
And, fortunately, my friend from Iowa here supported me on it, 
as did others, both Republicans and Democrats, Senator Lugar 
and others. It is now a $20 billion industry.
    I am worried that in USDA the Department has not kept up 
with probably the most rapid growing part of agriculture, and I 
hope I have your commitment that you would make sure the 
Department pays attention to the Organic Standards Act and 
tries to promote organic farming.
    Mr. Vilsack. Senator, I haven't shared this with everyone, 
but I started out in my county seat law practice doing income 
tax returns for farmers, and I can tell you, this time of year 
brings back memories of folks bringing on grocery sacks full of 
papers and receipts and calendars that numbers were written on, 
dumping it on the desk and saying, ``Here is my income tax 
information. I hope you do not charge me more than $25 for my 
tax return.''
    [Laughter.]
    Senator Leahy. Sounds like Vermont farmers. Go ahead.
    Mr. Vilsack. That may be universal, I suspect.
    I learned how difficult farming is and how difficult it is 
to make a living. And those of us who are consumers, we 
sometimes forget that, and we sometimes fail to appreciate 
that.
    That led me to the conclusion that it was necessary in 
policy to try to promote as many income opportunities as 
possible for farm families, to give them a diverse menu of 
options. And certainly you have mentioned the fact that organic 
farming is a rapidly growing part of agriculture and a rapidly 
growing part of people's diet and nutrition decisions. And we 
need to recognize that, we need to support it, and we need to 
celebrate it.
    Senator Leahy. And, Governor, I think the thing that will 
keep it working is if the standards are kept strict; otherwise, 
the market, especially with a lot of people who are paying, in 
effect, premium prices for organic food, they will say why do 
it if there is no difference.
    I think it is essential that the Department of Agriculture 
be able to say these are the standards, they are being 
implemented, but they are also being enforced.
    Mr. Vilsack. Senator, I would agree with you. It is part of 
the responsibility, if we are going to put our seal, if you 
will, or our certificate on something and certify to you as a 
consumer that it is what it is, it is important that it means 
something.
    Senator Leahy. My other question will be put in the record, 
but there is one I wanted to ask while I still have time. We 
have a broadband and loan guarantee program, rural development 
has. It has not been fully utilized. I know in Vermont we have 
a $100 million fiber-to-home project that could go into effect 
immediately if they had the loan guarantees as the Upper Valley 
of Vermont. It would create jobs, but it enables even more 
jobs.
    It cannot be like the old days before rural 
electrification. I told you I still remember my grandparents 
telling me in Vermont when they first turned a light switch on. 
Now you wouldn't think of any part of the country without 
electricity. But we can't have parts of the country without 
broadband. We can create a lot of jobs in my State of Vermont, 
you can in Iowa and elsewhere in rural areas if you have 
broadband.
    So I would hope that you will work with your rural 
development department and say you have got the authority for 
that program, let's get it out into rural areas where they do 
not have broadband.
    Mr. Vilsack. Senator, one of the things I am proudest of in 
terms of what I did as Governor in terms of rural issues was to 
aggressively promote broadband access, high-speed access. It is 
a job creator immediately, obviously, as people install 
whatever mechanism you ultimately decide to provide the access 
in. Then it is also a job creator afterwards because it creates 
opportunities for small businesses in the rural communities to 
have access not just to a local market, but to a global market. 
And that is the power of it. That is the beauty of it.
    You know, people often don't realize how significant rural 
communities can be in relationship to urban centers. We deal 
with traffic congestion. We deal with population increases in 
urban centers. One of the ways we can address that is by 
creating vibrant rural communities where people feel 
comfortable living and have all the amenities to take some of 
the pressure off urban centers.
    So this is a very, very important issue for your State, but 
it is a very important issue for the country, and it is 
important for us not to put broadband necessarily where there 
is already broadband. That is fine. It brings the prices down. 
But it does not address the issue that you have addressed, 
which is that there are some parts of the country that do not 
have it and should have it.
    Senator Leahy. Well, thank you, Governor. I suspect you and 
I will be working a lot together during the time that you are 
Secretary.
    Thank you very much, Mr. Chairman. Senator Chambliss, thank 
you.
    Chairman Harkin. Thank you, Senator Leahy.
    Senator Roberts.
    Senator Roberts. Well, Governor, thank you for being here 
today and thank you for meeting with me previously to discuss 
the future of the Department of Agriculture and agriculture 
program policy.
    Mr. Chairman, I don't know if there has been a coup or if 
Harry Reid has informed you, but apparently I have the gavel. I 
have the gavel, sir, and----
    [Laughter.]
    Senator Leahy. The Sergeant-at-Arms wondered who stole 
that.
    Senator Roberts. Well, it was just here. It magically 
appeared, and I didn't know whether Senator Chambliss had 
anything to do with that or not. But I am going to make sure 
that you have it, sir. I have ridden point, and I have ridden 
drag. Point is better with that gavel, but that is beside the 
point.
    Chairman Harkin. Well, I just thought you were so speedy. 
You are always so speedy. And since you chaired the House 
Committee, I figured you would be back here before everybody 
else, and so we just sent it down for you to take charge, 
because you are so fast on everything.
    Senator Roberts. We were walking a slow pace with a fast 
schedule.
    Governor, first of all, thank you. Because everybody in 
agriculture mentions exports, and I do want to thank you from 
the standpoint of Kansas for allowing us the exports of your 
best basketball players to Kansas University and to Kansas 
State. I really appreciate that.
    Mr. Vilsack. Senator, this is not getting off to a good 
start.
    [Laughter.]
    Senator Roberts. You are going to find that the Department 
is a marvelous place, and it is full of outstanding staff, full 
of folks who have dedicated their careers to providing rural 
America with options and opportunities. Ag policy today, as we 
discussed and as you have stated in your commentary, covers a 
swath of programs that are often subject to intense and 
sometimes unwarranted criticism. You have quite a challenge 
ahead of you, but I am sure that you are up to it.
    I can remember one of the press conferences where the 
President-elect said we have to control spending in relation to 
the stimulus bill. And they said, ``Well, where would you 
cut?'' That, of course, is the first question in the debate. 
``Where would you specifically cut?'' And he said, ``Well, 
there are always ag subsidies.'' I think that is just sort of a 
given, you know, for anybody that is not familiar with 
production agriculture.
    So we not only need a Secretary, we need a spokesman, we 
need a champion, and we need an educator. You responded to that 
in our personal meeting, and I hope you will continue to do 
that.
    We do face historic challenges. We have a saying in cattle 
country that when the weather is rough, the trail boss is only 
as good as the cowhands that ride with him. And I think you 
will find that with this Committee. We are probably one of the 
least partisan committees in that either we have to hang 
together or hang separately. And that is about the way it is.
    There is a lot of criticism of agriculture recently, much 
of it coming from folks who either do not understand or do not 
appreciate what I call production agriculture. And this gets 
into a definition that you find in the press a lot today and in 
commentary today extolling the virtues of the ``small family 
farmer.''
    Now, I am going to be a little sarcastic here, but with all 
due respect to small production agriculture and what we have 
been talking about, more especially the produce that the 
farmers bring into the county seat and you can touch and feel 
and look in the eye your own farmer and you can see the 
produce, I think that is fine. But that small family farmer is 
about 5-foot-2--I am looking to see if Mr. Leahy is still 
here--from Vermont, and he is a retired airline pilot. He sits 
on his porch on the glider reading Gentleman's Quarterly. He 
used to read the Wall Street Journal but that got, pretty grim. 
Then his wife works as a stockbroker, downtown. And he has 40 
acres, and he has a pond, and he has an orchard, and he grows 
organic apples. Sometimes there is a little more protein in 
those apples than, people bargain for, but he is very happy to 
have that.
    Then we have something called a production agriculture 
farmer. Now, that person is an Iowan. He has 2,000 acres and he 
farms with his Dad. Two brothers have gone because they can't 
really sustain that on the farm. His counterpart in Kansas, in 
my part of the country, has 10,000 acres, and his tractor costs 
about $350,000. I mean, it is amazing in terms of the cost. But 
these folks are the folks that produce the food and fiber for 
America and a troubled and hungry world. And I hope that given 
all of our support for organic agriculture and for specialty 
crops and all of that, which I am totally for, that we do not 
ignore the person who really produces the food and fiber for 
this country. And I hope you are a champion in that regard.
    There are some that want to change the mission of the USDA. 
Some think that the Department should be called the department 
of food or nutrition or hunger or, really, I think what they 
want is a department of anything but agriculture. And I just 
don't think, again, that we should lose sight of the fact that 
our farmers and ranchers do produce the food and fiber that now 
we desperately need worldwide.
    Our commodity programs are often criticized and seldom 
praised by those who have neither worked in a field nor whose 
livelihood depends on the weather. But for those that do, these 
programs are indeed necessary. I think others have said that. 
We must be fiscally responsible and frugal if we are going to 
compete in the global marketplace. And these programs only 
represent a mere one-quarter of 1 percent of Federal spending.
    I think hopefully that you and your Assistant Secretary 
nominees understand and appreciate what our producers go 
through. I know you do. They must recognize that American 
farmers and ranchers do actually produce the safest, most 
abundant and affordable food supply in the world. Speech over.
    Can you assure me, when you and President-elect Obama are 
considering nominees for your ag posse, that you will make this 
a top concern and that you will whisper these not so--well, 
they are not sweet nothings, they are sweet somethings--in the 
ear of the President-elect?
    Mr. Vilsack. Senator, again, hearkening back to my days of 
practicing law in the 1980's during the farm crisis, I had an 
opportunity to represent a lot of those production agriculture 
farmers you just referred to. These are good people. These are 
hard-working people. These are folks who have a value system 
that is not just important to them; I would argue it is 
important to us, to this country. It is about family. It is 
about faith. It is about community. It is about hard work. And 
it is about getting up every morning recognizing that what you 
do doesn't just impact your family and doesn't just feed your 
family, but it feeds a lot of families. Agriculture is a very 
complicated business and a very sophisticated business, and 
that sometimes is not recognized.
    So, first and foremost, let me tell you that I do 
understand and appreciate the role that anyone in Government 
has to educate citizens about what we do in Government and who 
we work for. Let me also say that I do appreciate the diversity 
of agriculture, not just the geographic diversity but the 
diversity of kinds of agriculture, and that it is the job of 
the USDA to be responsive and representative of all of that 
diversity and to be supportive of that diversity. And that is 
what I expect the folks who will be working with me to 
understand and appreciate and do every day.
    Senator Roberts. I appreciate your comments, and that was a 
very eloquent statement. Just one more question, Mr. Chairman.
    I want to talk about crop insurance just a minute and how 
vital it is to our producers, and I think that Senator Grassley 
stated this. I stated this to you when you visited with me, and 
I know the distinguished Chairman knows this. There are more 
crop insurance companies in Iowa than in any other State, and 
they really provide vital assistance to producers when they are 
going through tough times, whether it be falling crop prices, 
weather or whatever, and our Kansas producers experience the 
same thing.
    The folks on the front line of this program, a lot of hard-
working agents on the ground, not only explain to producers 
what coverage is needed on their operations, but also make sure 
that loss claims are processed quickly.
    Now, Governor, we are sitting here in Dirksen G50, and this 
is the scene of the great Ag Conference Committee that produced 
the 2008 farm bill. It was a little unusual. The Chairman and I 
were a little startled to see that we had 61 members of that Ag 
Conference, where we usually have about 20. I made the comment 
when the person allegedly in charge in the House made four 
speeches and said four times he didn't know why he was there. I 
also made the comment that it looked like the bar scene from 
``Star Wars,'' but that may be a little drastic. But there were 
a lot of people there that weren't involved in production 
agriculture. I have no problem with the programs that they 
want. But they actually acted like Lizzie Borden, and after 
they gave us one whack, why, they gave us about 41 others. And 
we paid for other programs to the tune of $6 billion, including 
salmon recovery in California, and I didn't like that. And I 
think if these programs are justified, we should fund them, but 
not at the expense of crop insurance.
    Unfortunately, that is what we did. That is what we had to 
do under PAYGO. I am not blaming anybody on this Committee. I 
am certainly not blaming the Chairman because he knows the 
value of crop insurance. But we had a lot of other people in 
the room, and all of a sudden crop insurance became a bank.
    I would sure like your assurance that will not continue 
because that is a very vital and needed program.
    Thank you.
    Mr. Vilsack. Senator, I would be a bit remiss if I tried to 
guarantee or commit the actions of any Member of Congress. I 
can't do that. But what I can do is this: I can recognize and 
state the necessity of having a crop insurance program as a 
risk management tool among many risk management tools that have 
been incorporated in all of the activities of this Committee. 
It is important to have the Crop Insurance Program. It is 
important to do what you all want us to do, which is to 
implement the Disaster Payment Program in concert with the Crop 
Insurance Program, and it is important to do it in a way that 
is beneficial to producers and fair to taxpayers. And I am 
committed to doing that if I am confirmed.
    Senator Roberts. Thank you.
    Thank you, Mr. Chairman.
    Chairman Harkin. Senator Lincoln.
    Senator Lincoln. Thank you, Mr. Chairman, and thank you, 
Senator Chambliss, for again bringing our Ag Committee 
together. And welcome, Governor. Congratulations to you for 
your nomination to fill the Ag Secretary position in the new 
Obama administration. We are excited to have you here and are 
looking forward to being able to work with you.
    As you touched upon in your opening statement, Governor, it 
is a critical time for our country. We face an economic crisis 
of historic proportions and ramifications which, I think, will 
very likely challenge USDA on almost all of its fronts.
    On hunger, the number of food-insecure households will 
continue to increase, as it has in the past few months. We have 
seen it in Arkansas, and I am sure my colleagues have seen it 
in their States. I certainly look forward to working with you, 
Governor, should you be confirmed, on the child nutrition and 
the WIC reauthorization, which is so critically important to 
States like mine, and many others.
    In agriculture, in the past year producers have seen the 
bottom fall out of the commodity markets. They have been hit by 
natural disasters in my State and in other States--your State 
as well--and have experienced record-high costs of production.
    And to add to their difficulties, the rules of the 2008 
farm bill have not yet been finalized, and as Senator Chambliss 
mentioned, some of what is being proposed is completely out of 
the ball park, quite frankly, from what our intent was when we 
met in that ``Star Wars'' barroom to come up with that farm 
bill.
    It was a very, I think, compromising situation where we all 
were willing to compromise to come up with a good package that 
reflected the entire country. Many of us gave in areas, but we 
were fortunate that our colleagues understood that we had needs 
in our own specific areas.
    So it was a very delicate compromise in terms of what we 
came up with in that farm bill. But to have the administration, 
the current administration come up with rules that have nothing 
to do with what our intent was is extremely frustrating, but it 
is also going to be enormously complicating the producers that 
are already out there trying to figure out what they are going 
to do with this crop year.
    So we hope that you will work with us that and understand, 
again, the way that we come together to both recognize and 
respect one another's diversities and understand the importance 
of what we did in that compromise and hopefully work with us to 
see that it is implemented in a fair and just way.
    You are well aware our food security, conservation of our 
natural resources, rural economic vitality, and increasingly 
our energy independence are all tied to the success of 
America's agriculture and these hard-working farm families 
across all of our States. And I really do look forward to 
working with you to ensure that we continue to promote policy 
that effectively supports the diversity of agriculture we have 
in there.
    As Senator Roberts mentioned, we are looking for a 
champion. We are looking for someone who is going to really 
recognize the hard work, the dedication, the pride that exists 
in all of our farm families, not just a few of them in a few 
States that do something maybe a way that is familiar to you, 
but to all of our farm families.
    I come from one. I come from a seventh-generation Arkansas 
farm family, and I can certainly express the unbelievable pride 
that our family has had through the years of being able to not 
only be productive but to also have tremendous respect for the 
environment and respect for their Government and what their 
Government at USDA asks of them in terms of reporting 
requirements and meeting regulations, like the Clean Air Act or 
the Clean Water Act--a good sense of pride of knowing that 
Government is going to work with them to really do what we all 
can do the best that we can do.
    So we look forward to working with you, and I think, what 
we all want to do is help ensure that the blessings of American 
agriculture are here for future generations and that there is 
something we can share with the rest of the world. And we are 
looking to you for that championship at USDA.
    Just a couple of questions. There is no other country in 
the world that does have such an affordable, safe, and abundant 
supply of food. One key reason is that the food is produced in 
all corners of our Nation and there is great diversity among 
those crops. Another reason is our country's proven farm policy 
and the ability for all facets of agriculture to come together 
and really rally behind a cohesive farm bill, as we have talked 
about. Whether it is wheat farmers in Kansas or rice and cotton 
farmers in Arkansas, sugar growers in Minnesota, cotton and 
peanut growers in Georgia, or corn farmers in your own home 
State, we all have to work closely to ensure America's security 
of food and also maintain our trade surplus, which really the 
only surplus we have in trade right now is in agriculture.
    Maybe you might speak just a few moments about how you are 
going to work with and represent all of the growers across the 
country, especially those crops that you might be less familiar 
with.
    Mr. Vilsack. Senator, let me first of all start by just 
making a comment in response to your comments generally.
    You mentioned the food assistance efforts, and I would 
just, as you well know, point out what a stimulating impact 
they can have not just on providing food to families but also 
encouraging the economy to grow and expand. There have been 
studies that suggest for every dollar that you spend in food 
assistance, you actually generate $7 in the economy, and that 
is something to keep in mind as you deal with the challenges of 
a tough economy.
    My job, as you have so well stated, is to represent 
virtually every aspect of agriculture in all parts of the 
country, and so let me say that I think that there are a lot of 
parallels and a lot of similarities. Regardless of where you 
farm or ranch, it is always a difficult struggle because so 
much of what you do, you have no control over.
    As I mentioned before, you don't have control over input 
costs; you don't have control over the weather; you don't have 
control over an invasive species that may come in without any 
fault of yours. You have no control over somebody doing 
something in one field that contaminates or creates 
difficulties for you in another field. So you have very little 
control, so it is very difficult.
    Recognizing that there is a similarity in agriculture, 
regardless of whether it is in Arkansas or Iowa or Georgia or 
Wyoming or wherever it might be, I think is important to 
convey, and I intend to convey that. I appreciate how difficult 
it is. I appreciate how important it is.
    I think it is also true that whether you are a cotton 
farmer in Georgia or you are a rice farmer in Arkansas, you 
ought to have multiple opportunities that the USDA supports so 
that you can make a living for your family. So that means 
aggressively promoting the Conservation Stewardship Program as 
it would be utilized in the best way in your State, which may 
be different than it might be in Iowa.
    It means aggressively promoting export opportunities and 
using all of the tools in our Foreign Agricultural Service to 
promote American products to make sure that we are getting a 
fair deal on the world markets and to address any concerns that 
our trading partners may have about our quality or quantity.
    It means using research and development to create and find 
alternative uses for products that we currently grow, opening 
up additional markets, or figuring out ways in which we can 
produce it for less or more efficiently. Also, the opportunity 
is absolutely countrywide for a discussion about climate change 
and the role and impact that agriculture generally will play in 
climate change. How can we reduce the carbon footprint of 
agriculture? What research and development can we provide, 
regardless what kind of farming you have? Versus how can we 
utilize our farm fields and our forests as carbon sinks, as 
depositories for carbon, as creative ways to reduce our carbon 
footprint nationally and globally? And then how do we use our 
technology, our knowledge, our food to put a different face of 
America to the rest of the world?
    I mean, there are multiple opportunities here, and USDA has 
to do it all.
    Senator Lincoln. Well, we are looking forward to working 
with you. Just on two of those that you have mentioned, I do 
have quick questions.
    You mentioned crop insurance. It is a very valuable tool 
for many farmers around the country, including in your home 
State of Iowa. In the 2008 farm bill, when we did have those 
compromises in the conferences we met, we added a new standing 
disaster program that complements the Federal Crop Insurance 
Program. Unfortunately, crop insurance and now this new SURE 
Disaster Program do not meet the risk needs that we have of 
rice farmers in Arkansas and in other States. Our capital 
expenditures are a tremendous risk that our farmers put out up 
front. The hurricanes this past year that affected crops as far 
north as Arkansas evidenced the shortcomings of these programs 
as they related to rise crops and rice growers.
    But I do believe, Governor, that an aggressive effort by 
the new administration to use some of their existing 
authorities in the development of effective and affordable crop 
insurance products for rice would address this hole in the 
system, helping us move away from costly and unbudgeted, ad hoc 
disaster programs that nobody wants to have to go through.
    I hope that you will commit to working with me and others 
in the Congress that represent rice-growing States, and 
certainly our rice growers across this country, to actively 
pursue this goal. If crop insurance is the way that people feel 
it necessary to go, let us make sure that it works for 
everybody. And I think you have the authority or you will have 
the authority at USDA to be able to work with us to make that 
happen. So I hope that we will have your commitment on that.
    The next thing is trade. When the Doha Round negotiations 
began, there was a general agreement among farmers and ranchers 
that a new agreement could offer greater market access for 
American farm goods, even though it was understood that we 
might have to make some concessions in the area of our domestic 
support. But, unfortunately, since negotiations began, 
ambitions for any meaningful market access have almost 
completely dropped off--dropped off deeply. I mean gone. And in 
my judgment, unsustainable cuts to domestic programs and 
domestic support are still on the table.
    I would like to know if you are going to work with Congress 
to ensure that any new WTO agreement is a net plus for all of 
U.S. agriculture and that we do not start out in the red for 
American agriculture in any agreements or discussions that we 
have. And I want to thank you for answer to Senator Casey on 
children's hunger, ending child hunger. As one of the co-chairs 
and founders of the Senate Hunger Caucus, it is incredibly 
important. But those two are important to me as well.
    Mr. Vilsack. Senator, let me just comment briefly on your 
comments. Agriculture is important to trade and trade is 
important to agriculture. I think you start with that basic 
premise.
    I think you also recognize, or at least I certainly know 
you do, and I certainly recognize, after having attended the 
WTO hearings and meetings in Seattle in 1999 and watching 
people talk about agreements on computers and manufactured 
goods with relative ease, and then having complete barriers 
whenever discussions of agriculture entered the conversation. 
And it impressed upon me how much culture there is in 
agriculture and how significant that is, since 170-plus 
countries actually grow or produce something, and it is central 
to who they are. And it is central to who we are in this 
country. We are no different than any of the developing 
countries that have concerns.
    I think it is important for USDA to be aggressively engaged 
in all of these conversations and discussions to protect the 
interests of American farmers to make sure that they are not 
bargained away without knowing the full ramifications of what 
is being discussed. I have a lot of confidence in the U.S. 
Trade Representative designee, Ron Kirk, to understand that. 
But I think it is incumbent upon us to be there as a partner 
with him and others who are engaged in these discussions. I 
think it is an important role. I see it as an important role. 
And I look forward to working with you on that and on other 
issues.
    In terms of crop insurance, let me just say that, first of 
all, as I said earlier, it is an important risk management tool 
that you recognize, and what we need to do is we want to make 
sure that how we use this tool is good for producers.
    Senator Lincoln. All producers.
    Mr. Vilsack. All producers, and is good for the taxpayers. 
And that is sometimes a delicate balance, but we need to find 
it. And as you say, the benefit of finding it is that it can 
significantly reduce the ad hoc disaster payments that often 
occur when weather conditions result in the loss of a crop and 
can devastate a family and a community.
    Senator Lincoln. Thank you.
    Thank you, Mr. Chairman.
    Chairman Harkin. Thank you very much.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you, Governor. As your neighbor to the north, I welcome you and 
have been able to see firsthand from not too far away your 
successful tenure as Governor. And I am sure we will be calling 
you ``Secretary'' soon. I try to avoid any Iowa jokes.
    Mr. Vilsack. Thank you.
    Senator Klobuchar. Minnesota is big on Iowa jokes. But I 
just couldn't avoid the one about what is the best thing that 
comes from Iowa? Interstate 35W.
    [Laughter.]
    Senator Klobuchar. But then I would amend that to include 
Senator Harkin and you, of course.
    You know, Minnesota shares a lot, of course, with your home 
State, and we have worked very well with Senator Harkin and 
Senator Grassley on the many agriculture issues. We are fifth 
in the country for the largest agriculture producing State. We 
have more than 79,000 farms in Minnesota, so the Department of 
Agriculture's actions are of tremendous importance to the 
people of our State, for everything from conservation to 
commodities to high-speed Internet access to rural water loans. 
So I am very glad that you have been nominated for this 
position because of your knowledge of how complex the issues 
are facing rural America.
    I know that Senator Thune talked to you about the ethanol 
blend issue. It is something I have been working on with him 
and a few others. I think it is very important that we keep 
this infant industry going. I think that there will be a 
transition in the industry to cellulosic ethanol, and I am very 
interested in that as well. But I think it is very important 
that we make sure that we do not pull the rug out from under 
what is so promising of the biofuels industry.
    One of my questions is along that line in that the 2008 
farm bill included a provision called the Biomass Crop 
Transition Assistance Program. It offered a system of 
incentives for farmers who want to be pioneers in the next 
generation of biofuels and are willing to take the risk of 
growing energy crops. I want to know if you are on board with 
that idea and how quickly you think it can be implemented. I 
suppose you will want to wait until you get in there, but we 
are very anxious to get that started in our State.
    Mr. Vilsack. Well, first of all, Senator, I am smart enough 
to know that I shouldn't respond with any Minnesota jokes.
    Senator Klobuchar. No, no. I would like you to do that.
    [Laughter.]
    Senator Klobuchar. That would add some levity. I would like 
that, Governor. I can bring that home.
    Mr. Vilsack. I will leave that up to the Chairman who has 
power. I don't have any.
    In terms of the biomass and bio-crop/biofuel issue, let me 
say that the farm bill contains a wide variety of programs that 
are designed to incent and develop and create and support new 
ways to produce biofuels, support for existing ways to produce 
biofuels, new ways to market biofuels. All of that is 
important, and all of it has to be focused and directed.
    This is an industry that is in some difficulty. Margins are 
quite small, even for the best producers. It is an industry 
where the smaller production facilities are really challenged, 
and some consolidation has taken place and may very well 
continue to take place. But it is important to continue to 
maintain the infrastructure because if you are going to 
transition at some point in time to cellulosic ethanol, you 
have to have the capacity to produce it. And you don't want 
that hundreds of millions of dollars, billions of dollars that 
has already been invested not to be fully utilized.
    And so there are many missions for USDA as it relates to 
biofuels, but I can tell you that it is my desire, if 
confirmed, to make sure that we are very disciplined, we are 
very focused, and we are very aggressive in promoting all of 
the programs, because they are all important. You can produce 
all the biofuel in the world, but if you don't have a market 
for it, it is not going to work. You can have a great market, 
but if you can't produce it, it won't work. You can have a 
market and produce it, but if you can't transport it or you 
can't get it to where it is going to be utilized, it won't 
work.
    So you need a comprehensive approach utilizing all of the 
programs and, if confirmed, I am committed to working on that.
    Senator Klobuchar. Very good. We also have been doing some 
ground-breaking work at the University of Minnesota on food 
safety, and time and time again, our university is the one that 
figures out if there is a problem, including this latest 
salmonella in peanut butter at the University of Minnesota.
    What are your thoughts on the food safety issue? And do you 
have some plans of how you think we need to reform our system? 
Despite what we know, that there are many, many safe foods and 
safe processes in our country, but clearly, there have been 
some issues lately, and I wondered what your thoughts were on 
that.
    Mr. Vilsack. You know, one of the most important jobs of 
the United States Department of Agriculture is to work in 
partnership and cooperation with other Federal agencies to 
ensure that Americans do indeed have not just an ample supply 
of food but that it is indeed safe. As science continues to 
expand our knowledge about pathogens and other challenges to 
the safety and security of our food supply, we need to make 
sure that whatever our system is for ensuring the safety of the 
food supply is consistent with the science.
    And so what I perceive as a need for us to modernize our 
inspection and surveillance systems so it is focused on 
prevention and mitigation--prevention in terms of finding out 
precisely what causes these difficulties and preventing it to 
begin with; and mitigation, being able to quickly determine 
there is a problem and contain it.
    You mentioned the peanut butter issue. It is interesting 
that this peanut butter was sold in just a small handful of 
States.
    Senator Klobuchar. Exactly.
    Mr. Vilsack. But somehow 25, 23, 24 States are now 
involved. So it poses the need for serious attention to 
mitigation. So my hope is that, A, we can establish a 21st 
century system using the best available science; and, B, that 
we can do a better job of coordination and cooperation with 
other Federal agencies that are involved in this so that we 
have as seamless a system and as efficient a system as 
possible.
    Senator Klobuchar. Thank you. A few unique Minnesota 
issues. The sugar policy, of course, we have 30,000 jobs in the 
Red River Valley between our State and North Dakota, and we 
have seen that as a success; it is zero on the Federal budget. 
And hopefully you will be supportive of that as we go forward 
in the implementation of that policy.
    The second thing is the Forest Service part of your job. I 
am not sure if anyone asked about that, but in Minnesota, as 
you know, we have a lot of trees, logging. My grandfather was 
not just an iron ore miner. He was also a logger. And I have 
heard from people in northern Minnesota, both loggers as well 
as environmentalists, of the concern about the budget for the 
U.S. Forest Service. We have seen the part of the budget 
Chairman Harkin devoted to firefighting because of the 
increased fires we have seen across the country, some in part, 
I think, due to climate change--and I going to the EPA 
confirmation hearing right after this. The part of the budget 
devoted to fire fighting has gone from 20 to 50 percent, taking 
away critical resources for things like forest management that 
could be used to help manage the forests.
    Any thoughts on this?
    Mr. Vilsack. Senator, first of all, the Forest Service is 
an important and integral part of this Department, and it has a 
multitude of issues and a multitude of missions. It not only 
provides timber, as you have alluded to, but it is a great 
source of recreation and opportunity for people. It is a 
national treasure. It is also a reservoir. A lot of people 
don't realize that our forests basically provide and assist in 
providing water, clean water to 60 million Americans. It can 
and should and ought to be an integral part of whatever climate 
change policies we adopt. So very important.
    I would say in response to your question a couple of 
things.
    First, I think it is important for us to have a very 
strategic plan as to how we are going to approach the 
management of our forests so that we can do as good a job as we 
possibly can preventing these enormous fires that have consumed 
so much of the budget, as you have alluded to.
    Second, I look forward, if I am confirmed, to working with 
this Committee and with the Congress and with the 
administration to see if there are ways in which we can do a 
better job of protecting the management budget of the Forest 
Service so that it can do what it is supposed to do, which is 
to manage the forests, which in turn will reduce the risk of 
the fires that we end up paying millions and millions of 
dollars for.
    Senator Klobuchar. Exactly.
    Mr. Vilsack. And, finally, my hope is that we can work in 
partnership with local communities and to reach out to local 
communities to develop a better relationship so that we know 
what they are planning and doing and they know what we are 
planning and doing and so that there isn't inconsistencies or 
difficulties or we create situations that raise the risks 
substantially of expensive fires.
    So it is a very important aspect of the Department and one 
that I am absolutely committed to working on. It is very, very 
important.
    Senator Klobuchar. Well, thank you. And, again, Iowa jokes 
aside, I want to tell you how happy I am that you were 
nominated. I think I called and told you I actually had a bad 
dream about this, that we had an Agriculture Secretary 
nominated, Chairman, and I had never heard of their name. And I 
woke up in terror that we were not going to have a good 
nominee. And we certainly got a very good nominee in you, 
Governor, and I look forward to working with you. And I truly 
believe having--I visit all 87 counties in our State every 
year, and it takes me to a lot of rural parts of our State--
that there is just so--there are challenges, but there is so 
much opportunity and optimism out there, particularly about the 
new President's plan with energy. And I talked about biofuels 
today, but you know that extends to wind and solar and all 
kinds of things, and that the real action, if we can get the 
goods to market and the transportation system right, there is 
going to be a lot of action in our rural areas. And I look 
forward to you helping to lead that effort.
    Thank you.
    Mr. Vilsack. Thank you, Senator.
    Chairman Harkin. Thank you very much, Senator Klobuchar.
    I just might say to my friend from Minnesota that I have 
often wondered about why Minnesotans always say that the best 
thing that comes out of Iowa is Interstate 35. Well, it finally 
dawned on me why they say that. It is because it is the main 
avenue of escape.
    [Laughter.]
    Chairman Harkin. For so many Minnesotans during the winter 
when they want to come to Iowa for a little warm weather. And 
we are happy to oblige.
    Senator Klobuchar. You mean just because it was 25 below 
last night, Mr. Chairman, that they want to go a little south?
    Chairman Harkin. That is right.
    Mr. Vilsack. Senator, now you know why I asked Senator 
Harkin to respond to that.
    Senator Klobuchar. Well, yes, and he does have the gavel, 
so I will now end. Thank you.
    Chairman Harkin. I thank you.
    Senator Cochran, thank you. You have been very, very 
patient, and I appreciate that very much.
    I say to my friend Governor Vilsack, I know you deal with 
all of the various people here and the experts here and in the 
House. I have five former Chairmen of this Committee or the 
House Agriculture Committee who have all the expertise here 
that I am very cognizant of, and they have a great wealth of 
expertise and knowledge on agriculture, and none more so than 
Senator Cochran from Mississippi.
    Senator Cochran. Well, Mr. Chairman, thank you for your 
kind words, and we all appreciate that we have only one 
Chairman at a time.
    [Laughter.]
    Senator Cochran. And we respect that, and we respect your 
leadership that you have shown as Chairman of this Committee.
    Mr. Chairman, I am pleased that President-elect Obama has 
nominated a person with experience in Government and an 
understanding of the United States agriculture industry to be 
Secretary of Agriculture. Governor Vilsack comes from a State 
very similar to my home State of Mississippi where much of the 
State is rural and agriculture is the economic base of many 
local communities.
    The Governor referred in his testimony to his commitment to 
a robust farm safety net and to create real and meaningful 
opportunities for farmers and ranchers to succeed. I applaud 
and appreciate this strong statement.
    During Governor Vilsack's term as Governor, he demonstrated 
leadership and an understanding that research and advances in 
technology are critical for both America's farmers to remain 
competitive and to enable them to continue to supply food and 
fiber to other countries throughout the world.
    The Department of Agriculture also has an important role in 
providing assistance and support for our rural communities. Of 
particular concern in my State is the high rates of obesity and 
diabetes, as well as economic disparities in these areas. The 
2008 farm bill included a program to help address these issues, 
specifically in the Mississippi Delta. I hope this 
administration will support increased funding for these 
challenges.
    Congress will soon begin work on the reauthorization of the 
Child Nutrition Act. The agencies which administer the programs 
help educate individuals about the importance of nutrition and 
good health practices. The long-term effect will be to help 
create a new generation of healthy Americans and a significant 
reduction in health care costs.
    I understand the nominee has also been a strong supporter 
of biofuels and renewable fuels. I hope Congress and the Obama 
administration will work together to provide the investments 
needed to lower the costs of new fuel technologies.
    Again, Mr. Chairman, I congratulate Governor Vilsack on his 
nomination. I have a couple of questions that occurred to me, 
and I thought I would ask him.
    In the Mississippi Delta, our farm area there, we have a 
lot of fragile lands, many heavily forested. Once upon a time 
it was all huge forests, and the Mississippi River Delta was 
the place where there were abundant wildlife and fish 
resources. Over time, a lot of pressure has been put on that 
area of the country because of intensive farming practices over 
the years. We have gotten now to the areas of conservation 
incentives, trying to help restore the right balance between 
our agriculture interests and the importance of food production 
and fiber production in that area and in our conservation of 
fragile lands and forests, which are so important also.
    I am wondering whether you have any ideas about changes or 
reforms in this area. What is your attitude generally about how 
we strike this proper balance? And does the Department of 
Agriculture plan under your leadership to participate actively 
in these debates?
    Mr. Vilsack. Senator, the conservation programs that you 
have alluded to I think are extremely important for multiple 
reasons. You mentioned the importance of preserving the natural 
resources, and clearly that is a function of those programs. I 
think it is also a job creator in rural communities because the 
conservation programs have to be implemented in some way, and 
oftentimes that involved contractors moving dirt or taking 
steps to create buffer strips in the like in my neck of the 
woods, and probably in yours as well. So there are rural jobs 
that are connected directly to these conservation efforts.
    There is also a return of wildlife which creates a whole 
host of tourism opportunities, hunting and fishing 
opportunities, which are also extremely important. And if the 
conservation is done properly, it does improve in many areas 
water quality.
    So there are multiple reasons why it has been important to 
see the evolution of conservation over the last 25 years in 
farm bills that have been introduced, and I think with the 
Conservation Stewardship Program, I think this Committee with 
the Chairman's leadership has sent a very strong message that 
this is going to be a fundamental component of agriculture and 
needs to be recognized as such and needs to be treated almost 
as if it were a commodity, as an income opportunity for farmers 
and ranchers.
    I think there is also a tremendous opportunity as we begin 
the conversation of climate change and what the national policy 
will be in climate change, within NRCS in particular, to focus 
their efforts on mitigation and adaptation strategies and to 
combine that with research and development to try to figure out 
precisely what are the best ways to preserve the quality of our 
soil and water and at the same time increase the productivity 
of farmland.
    I think there are tremendous opportunities to do this and 
at the same time create carbon sinks, opportunities for offsets 
as you set up whatever system you are going to set up to deal 
with climate change. Another income opportunity, another income 
source. That is the key here, is to continue to create a series 
of options for farmers and ranchers, and I am committed to 
that. I have seen it happen in my State, and I have seen the 
success of it, and I have seen the vitality it has brought back 
to communities.
    And then as part and parcel of that, it is important to 
also not fail to pay attention to the communities in which 
these folks live and making sure that the infrastructure is 
there to support them. You can have great conservation, you can 
have great farmland; but if you don't have communities that 
have schools and health care facilities and off-farm job 
opportunities, it makes it much more difficult to keep people 
on the farm. And then you see further consolidation of farm 
ownership and more difficulties for beginning farmers to get 
started in this business. And I am concerned about that, 
especially with the aging nature of some of our farm families. 
So there are lots of issues there.
    Senator Cochran. As you have prepared for your confirmation 
hearing, have you come up with any suggestions for changes in 
the farm bill that we recently passed, any improvements that 
need to be made that will be a part of your agenda as the new 
Secretary of Agriculture?
    Mr. Vilsack. Senator, I was counseled on more than one 
occasion by folks to simply indicate the necessity of 
implementing the farm program that you all passed consistent 
with your intent.
    [Laughter.]
    Senator Cochran. Well, some people are already preparing to 
suggest changes, but we worked real hard on that, and I think 
the chairman indicated what an effort it was to put together 
that bill. It seemed like the conference went on for weeks. It 
was probably days, but one of the longest, drawn-out debates 
and discussions of issues facing agriculture and rural America 
that I had ever seen in my years here in the Congress.
    But the work product I think has many good things in it, 
and I hope that you will consult with the Committee, informally 
or in formal hearings, whenever you think we need to make 
changes. We should not be reluctant to consider and discuss 
those areas if we find that we have made a mistake. I don't 
think we should be hesitant to try to deal with it and make 
improvements where improvements can be made.
    But there are some, who will use that as an opportunity to 
take out, after whipping boys--some may call it that--things 
that are criticized by some. Subsidies generally for 
agriculture have a bad connotation in the minds of many, but 
for others they are the only reason that we remain productive 
and competitive in the world economy, by participating in 
agriculture practices and in production agriculture.
    Mr. Vilsack. Yes, I think it is incumbent upon USDA to 
state the importance and to recognize the importance of that 
farm safety net. I think it is also important from the 
reputation of the Department to make sure that people who 
deserve to get payments and deserve to get support are getting 
that support, and that folks who don't deserve to get it aren't 
getting it. I think that sometimes undercuts the reputation of 
the Department and the reputation of the programs. And that is 
why I think it is important for us to have the right kind of 
technology that will allow us to give you the data and the 
information and the input and for us to learn from that data 
whether or not programs are working or not, whether or not 
there need to be changes or modifications.
    It is difficult for me, obviously, not having been in the 
office, to be specific about this, but if you are going to set 
performance measures, you have to have the capacity to get the 
information that allows you to determine whether a program is 
working. And you all want that, and you deserve it and the 
taxpayers deserve it. But it is difficult to do when you have 
got 1980's technology.
    So that is part of responding to your call, is to make sure 
that we have the right kind of technology that gives you the 
information you need to make those decisions, and that we in 
turn can make recommendations to you about modifications or 
amendments if there need to be.
    Senator Cochran. When I was a candidate for Congress in 
1972, I remember one of my advisers said, ``You need to be 
able, at your news conference announcing your candidacy, to 
talk about the Rural Development Act,'' and he recommended that 
I come out very strongly for full funding of the Rural 
Development Act. And I didn't know what the Rural Development 
Act was. I was practicing law and did not have close touch with 
all the issues and legislation that was being passed by 
Congress.
    But, anyway, I took that advice and also became familiar 
with the Rural Development Act, and we are today still deriving 
benefits from that Rural Development Act that was passed back 
in that era. And I hope that if you aren't already familiar 
with many of the programs and priorities that are identified 
for rural America in that act, you will become familiar like I 
did when I was first exposed to responsibilities at the Federal 
level. But you have a big job, and we are looking forward to 
working with you and supporting your efforts to strengthen 
rural America and help keep our farm economy healthy.
    Mr. Vilsack. Thank you, Senator.
    Senator Cochran. Thank you, Mr. Chairman.
    Chairman Harkin. I would say to my friend from Mississippi, 
with all of the bailout money--that is a subsidy to all these 
big-city banks and Wall Street. I don't want the Wall Street 
Journal and the New York Times preaching to me anymore about 
the modest assistance that we provide to our farmers in 
America. I thank the Senator from Mississippi.
    Senator Cochran. Very good.
    Chairman Harkin. Well, two other things here. A number of 
Senators could not be here. Senator Baucus could not be here 
because he has had a conflict with another Committee meeting. 
He will submit questions in writing.
    [The questions of Hon. Max Baucus can be found on page 128 
in the appendix.]
    Chairman Harkin. Senator Brown was unable to attend also 
because his mother is very ill, and Senator Stabenow is out 
with an illness and she could not be here either.
    Staff for Committee members have been informed that written 
questions are due by 4 p.m. this afternoon, so staff who are 
here, please make sure if your members have any written 
questions, they have to be in by 4 o'clock.
    The record will stay open for statements and other 
materials for the record for 5 business days. The Committee has 
received a number of letters and statements in support of the 
nomination of Governor Vilsack, and without objection, they 
will be made a part of the record.
    [The following information can be found on page 72 through 
120 in the appendix.]
    Chairman Harkin. In closing, Governor, two topics. I want 
to cover, I was really delighted to hear one answer you just 
gave to Senator Cochran in which you talked about conservation 
commodities. I have a note here that in June of 2001, Governor 
Vilsack was the Chair of the National Governors Association's 
Committee on Natural Resources.
    The Committee issued a publication, they published a 
publication called ``Private Lands and Public Benefits.'' Among 
the recommendations resulting from the Committee's conference 
was that Government-supported working lands conservation 
programs should demonstrate that they produce valuable and 
measurable ``environmental goods or conservation commodities.'' 
So you go back a long way on that approach, and I am delighted 
to hear that you are still thinking that way. That bodes well 
for agricultural producers and for conservation.
    Lastly, I will point out a program that has not gotten much 
publicity. It was included in the 2002 farm bill as Section 
9002. I put it in. And it is in permanent law so it doesn't 
expire with farm bills. It says very simply, ``Every Federal 
department and agency shall``--not ``may'' but ``shall``--
``give a preference to bio-based products in procurement as 
long as the products are reasonably equivalent in price, 
performance, and availability.''
    Well, that requirement has been in the law since 2002. We 
have only had one sort of a--what would you call it? A fair or 
trade show at the Department of Defense a few years ago. We had 
all the different vendors come in that had products that were 
bio-based that the Department of Defense could purchase. The 
Deputy Secretary of Defense was there, plus the Secretary of 
Agriculture.
    My point is that I am hopeful, Governor, that when you take 
your position, you will remind all your fellow Secretaries--
Transportation, Interior, Defense, Commerce, all of them--that 
bio-based procurement preference applies to them, too. It 
doesn't just apply to the Department of Agriculture. It applies 
to every Federal department and agency. They shall give a 
procurement preference to bio-based products.''
    I intend to use this Committee and this chairmanship to 
call before this Committee some of your fellow Secretaries to 
ask them how they are implementing it. I think it would be safe 
to say that, with your exception, I doubt if any of them even 
know about this requirement--well, Secretary Gates knows about 
it because I have asked him about it. But the new ones coming 
in, I don't know. And they should be apprised of this law, and 
I hope that I can count on you to get your staff to inform all 
departments and agencies. And when you meet around that cabinet 
table down at the White House, you might remind them that the 
law says that they shall give a preference to bio-based 
products, and they ought to be ginning up their departments to 
figure out how they can do so.
    At the Department of Interior, for example, all the 
national parks that they oversee, they could be buying bio-
based hydraulic fluids, greases, oils, and items like that that 
are biodegradable. I mentioned the Department of 
Transportation. There are others.
    I hope to work with you on this bio-based requirement and 
to really finally bring this provision of the law into use by 
these various departments.
    Did you have anything else, Senator Cochran, that you 
wanted to ask?
    Senator Cochran. I think we have pretty well covered 
everything we need to discuss. Thank you.
    Chairman Harkin. Well, thank you very much.
    Governor Vilsack, if you have anything to close on, I would 
be more than happy to recognize you for that purpose.
    Mr. Vilsack. Mr. Chairman, just simply to thank you and the 
members of the Committee for the opportunity to be here today. 
If confirmed, I will certainly make sure that my fellow 
Secretaries and administrators are aware of the bio-based 
purchase preference program that you have talked about. I would 
ask that you give me a couple of months to let them know about 
this before you call them up here, in fairness.
    [Laughter.]
    Chairman Harkin. Done.
    Mr. Vilsack. Let me just simply conclude with just a 
personal statement. I care deeply about the people who live in 
rural communities. I have represented them in courts of law. I 
have served them in a variety of capacities. And what I have 
found is that they genuinely believe in the promise of this 
country. They are extraordinarily proud of the contribution 
they make. In our part of the world, they recognize the role 
that they play in not just feeding Americans but people all 
over the world. And they care deeply about the land and the 
water and the resources.
    If confirmed, I hope that I am a Secretary that continues 
to advocate on their behalf and to continue the work that I 
started 30-some years ago as a small-town lawyer. That is how I 
began my professional career, and to a certain extent, in a 
strange way, this is a continuation of that advocacy role. I 
take it very seriously, and I would appreciate the opportunity 
to have this privilege, and I appreciate your kindness in 
letting me be here and the President-elect's confidence in 
allowing me to be here today.
    Chairman Harkin. Well, Governor, thank you for that very 
profound ending statement. I cannot think of anything more to 
add than my best wishes, my congratulations, and we look 
forward to a speedy confirmation. I am sure that it will take 
place next Tuesday. I will be obviously polling the members of 
the Committee, but I sense that we will likely be unanimous. I 
congratulate you for that and again wish you well, and I look 
forward to working with you in the coming months and years to 
advance all of the causes and values that you just spoke about 
in working for people who live in rural America. So God bless 
you. Thank you very much for being here. Christie, wonderful to 
see you here.
    If there is nothing else to come before the Committee, the 
Committee will stand adjourned subject to the call of the 
Chair.
    [Whereupon, at 12:28 p.m., the Committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                            January 14, 2009



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 49575.001

[GRAPHIC] [TIFF OMITTED] 49575.002

[GRAPHIC] [TIFF OMITTED] 49575.003

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            January 14, 2009



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 49575.004

[GRAPHIC] [TIFF OMITTED] 49575.005

[GRAPHIC] [TIFF OMITTED] 49575.006

[GRAPHIC] [TIFF OMITTED] 49575.007

[GRAPHIC] [TIFF OMITTED] 49575.008

[GRAPHIC] [TIFF OMITTED] 49575.009

[GRAPHIC] [TIFF OMITTED] 49575.010

[GRAPHIC] [TIFF OMITTED] 49575.011

[GRAPHIC] [TIFF OMITTED] 49575.012

[GRAPHIC] [TIFF OMITTED] 49575.013

[GRAPHIC] [TIFF OMITTED] 49575.014

[GRAPHIC] [TIFF OMITTED] 49575.015

[GRAPHIC] [TIFF OMITTED] 49575.016

[GRAPHIC] [TIFF OMITTED] 49575.017

[GRAPHIC] [TIFF OMITTED] 49575.018

[GRAPHIC] [TIFF OMITTED] 49575.019

[GRAPHIC] [TIFF OMITTED] 49575.020

[GRAPHIC] [TIFF OMITTED] 49575.021

[GRAPHIC] [TIFF OMITTED] 49575.022

[GRAPHIC] [TIFF OMITTED] 49575.023

[GRAPHIC] [TIFF OMITTED] 49575.024

[GRAPHIC] [TIFF OMITTED] 49575.025

[GRAPHIC] [TIFF OMITTED] 49575.026

[GRAPHIC] [TIFF OMITTED] 49575.027

[GRAPHIC] [TIFF OMITTED] 49575.028

[GRAPHIC] [TIFF OMITTED] 49575.029

[GRAPHIC] [TIFF OMITTED] 49575.030

[GRAPHIC] [TIFF OMITTED] 49575.031

[GRAPHIC] [TIFF OMITTED] 49575.032

[GRAPHIC] [TIFF OMITTED] 49575.033

[GRAPHIC] [TIFF OMITTED] 49575.034

[GRAPHIC] [TIFF OMITTED] 49575.035

[GRAPHIC] [TIFF OMITTED] 49575.036

[GRAPHIC] [TIFF OMITTED] 49575.037

[GRAPHIC] [TIFF OMITTED] 49575.038

[GRAPHIC] [TIFF OMITTED] 49575.039

[GRAPHIC] [TIFF OMITTED] 49575.040

[GRAPHIC] [TIFF OMITTED] 49575.041

[GRAPHIC] [TIFF OMITTED] 49575.042

[GRAPHIC] [TIFF OMITTED] 49575.043

[GRAPHIC] [TIFF OMITTED] 49575.044

[GRAPHIC] [TIFF OMITTED] 49575.045

[GRAPHIC] [TIFF OMITTED] 49575.046

[GRAPHIC] [TIFF OMITTED] 49575.047

[GRAPHIC] [TIFF OMITTED] 49575.048

[GRAPHIC] [TIFF OMITTED] 49575.049

[GRAPHIC] [TIFF OMITTED] 49575.050

[GRAPHIC] [TIFF OMITTED] 49575.051

[GRAPHIC] [TIFF OMITTED] 49575.052

[GRAPHIC] [TIFF OMITTED] 49575.053

[GRAPHIC] [TIFF OMITTED] 49575.054

[GRAPHIC] [TIFF OMITTED] 49575.055

[GRAPHIC] [TIFF OMITTED] 49575.056

[GRAPHIC] [TIFF OMITTED] 49575.057

[GRAPHIC] [TIFF OMITTED] 49575.058

[GRAPHIC] [TIFF OMITTED] 49575.059

[GRAPHIC] [TIFF OMITTED] 49575.060

[GRAPHIC] [TIFF OMITTED] 49575.061

[GRAPHIC] [TIFF OMITTED] 49575.062

[GRAPHIC] [TIFF OMITTED] 49575.063

[GRAPHIC] [TIFF OMITTED] 49575.064

[GRAPHIC] [TIFF OMITTED] 49575.065

[GRAPHIC] [TIFF OMITTED] 49575.066

[GRAPHIC] [TIFF OMITTED] 49575.067

[GRAPHIC] [TIFF OMITTED] 49575.068

[GRAPHIC] [TIFF OMITTED] 49575.069

[GRAPHIC] [TIFF OMITTED] 49575.070

[GRAPHIC] [TIFF OMITTED] 49575.071

[GRAPHIC] [TIFF OMITTED] 49575.072

[GRAPHIC] [TIFF OMITTED] 49575.073

[GRAPHIC] [TIFF OMITTED] 49575.074

      
=======================================================================


                         QUESTIONS AND ANSWERS

                            January 14, 2009



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 49575.075

[GRAPHIC] [TIFF OMITTED] 49575.076

[GRAPHIC] [TIFF OMITTED] 49575.077

[GRAPHIC] [TIFF OMITTED] 49575.078

[GRAPHIC] [TIFF OMITTED] 49575.079

[GRAPHIC] [TIFF OMITTED] 49575.080

[GRAPHIC] [TIFF OMITTED] 49575.081

[GRAPHIC] [TIFF OMITTED] 49575.082

[GRAPHIC] [TIFF OMITTED] 49575.083

[GRAPHIC] [TIFF OMITTED] 49575.084

[GRAPHIC] [TIFF OMITTED] 49575.085

[GRAPHIC] [TIFF OMITTED] 49575.086

[GRAPHIC] [TIFF OMITTED] 49575.087

[GRAPHIC] [TIFF OMITTED] 49575.088

[GRAPHIC] [TIFF OMITTED] 49575.089

[GRAPHIC] [TIFF OMITTED] 49575.090

[GRAPHIC] [TIFF OMITTED] 49575.091

[GRAPHIC] [TIFF OMITTED] 49575.092

[GRAPHIC] [TIFF OMITTED] 49575.093

[GRAPHIC] [TIFF OMITTED] 49575.094

[GRAPHIC] [TIFF OMITTED] 49575.095

[GRAPHIC] [TIFF OMITTED] 49575.096

[GRAPHIC] [TIFF OMITTED] 49575.097

[GRAPHIC] [TIFF OMITTED] 49575.098

[GRAPHIC] [TIFF OMITTED] 49575.099

[GRAPHIC] [TIFF OMITTED] 49575.100

[GRAPHIC] [TIFF OMITTED] 49575.101

[GRAPHIC] [TIFF OMITTED] 49575.102

[GRAPHIC] [TIFF OMITTED] 49575.103

[GRAPHIC] [TIFF OMITTED] 49575.104

[GRAPHIC] [TIFF OMITTED] 49575.105

[GRAPHIC] [TIFF OMITTED] 49575.106

[GRAPHIC] [TIFF OMITTED] 49575.107

[GRAPHIC] [TIFF OMITTED] 49575.108

[GRAPHIC] [TIFF OMITTED] 49575.109

[GRAPHIC] [TIFF OMITTED] 49575.110

[GRAPHIC] [TIFF OMITTED] 49575.111

[GRAPHIC] [TIFF OMITTED] 49575.112

[GRAPHIC] [TIFF OMITTED] 49575.113

[GRAPHIC] [TIFF OMITTED] 49575.114

[GRAPHIC] [TIFF OMITTED] 49575.115

[GRAPHIC] [TIFF OMITTED] 49575.116

[GRAPHIC] [TIFF OMITTED] 49575.117

[GRAPHIC] [TIFF OMITTED] 49575.118

[GRAPHIC] [TIFF OMITTED] 49575.119

[GRAPHIC] [TIFF OMITTED] 49575.120

[GRAPHIC] [TIFF OMITTED] 49575.121

[GRAPHIC] [TIFF OMITTED] 49575.122

[GRAPHIC] [TIFF OMITTED] 49575.123

[GRAPHIC] [TIFF OMITTED] 49575.124

[GRAPHIC] [TIFF OMITTED] 49575.125

[GRAPHIC] [TIFF OMITTED] 49575.126

[GRAPHIC] [TIFF OMITTED] 49575.127

[GRAPHIC] [TIFF OMITTED] 49575.128

[GRAPHIC] [TIFF OMITTED] 49575.129

[GRAPHIC] [TIFF OMITTED] 49575.130

[GRAPHIC] [TIFF OMITTED] 49575.131

[GRAPHIC] [TIFF OMITTED] 49575.132


</pre></body></html>
